<html>
<title> - THE CHARLESTON, WEST VIRGINIA, CHEMICAL SPILL</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
             THE CHARLESTON, WEST VIRGINIA, CHEMICAL SPILL

=======================================================================

                                (113-53)

                             FIELD HEARING

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

             FEBRUARY 10, 2014 (Charleston, West Virginia)

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation


                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
86-632                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="096e7966496a7c7a7d616c6579276a666427">[email&#160;protected]</a>  

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL, II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee,          Columbia
  Vice Chair                         JERROLD NADLER, New York
JOHN L. MICA, Florida                CORRINE BROWN, Florida
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
GARY G. MILLER, California           ELIJAH E. CUMMINGS, Maryland
SAM GRAVES, Missouri                 RICK LARSEN, Washington
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
CANDICE S. MILLER, Michigan          TIMOTHY H. BISHOP, New York
DUNCAN HUNTER, California            MICHAEL H. MICHAUD, Maine
ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      ALBIO SIRES, New Jersey
PATRICK MEEHAN, Pennsylvania         DONNA F. EDWARDS, Maryland
RICHARD L. HANNA, New York           JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              ANDRE CARSON, Indiana
STEVE SOUTHERLAND, II, Florida       JANICE HAHN, California
JEFF DENHAM, California              RICHARD M. NOLAN, Minnesota
REID J. RIBBLE, Wisconsin            ANN KIRKPATRICK, Arizona
THOMAS MASSIE, Kentucky              DINA TITUS, Nevada
STEVE DAINES, Montana                SEAN PATRICK MALONEY, New York
TOM RICE, South Carolina             ELIZABETH H. ESTY, Connecticut
MARKWAYNE MULLIN, Oklahoma           LOIS FRANKEL, Florida
ROGER WILLIAMS, Texas                CHERI BUSTOS, Illinois
MARK MEADOWS, North Carolina
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
MARK SANFORD, South Carolina
VACANCY
                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY
                                Panel 1

Hon. Joe Manchin III, a U.S. Senator from the State of West 
  Virginia.......................................................     6

                                Panel 2

Rafael Moure-Eraso, Chairperson, U.S Chemical Safety Board.......     9
Mike Dorsey, chief, Homeland Security and Emergency Response, 
  West Virginia Department of Environmental Protection...........     9
James A. Gianato, director, West Virginia Division of Homeland 
  Security and Emergency Management..............................     9
Letitia E. Tierney, M.D., J.D., commissioner, Bureau for Public 
  Health, West Virginia Department of Health and Human Resources, 
  and State health officer.......................................     9
Gordon Merry, director, Cabell County Office of Emergency 
  Services.......................................................     9
Dale A. Petry, director, Kanawha County Department of Homeland 
  Security and Emergency Management..............................     9
Jeffrey L. McIntyre, president, West Virginia American Water.....     9

           PREPARED STATEMENT SUBMITTED BY MEMBER OF CONGRESS

Hon. John D. Rockefeller IV, a U.S. Senator from the State of 
  West Virginia..................................................    47

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Hon. Joe Manchin III.............................................   \1\
Rafael Moure-Eraso...............................................    50
Mike Dorsey......................................................    55
James A. Gianato.................................................    58
Letitia E. Tierney, M.D., J.D....................................    63
Gordon Merry.....................................................    66
Dale A. Petry....................................................    69
Jeffrey L. McIntyre..............................................    75

                       SUBMISSION FOR THE RECORD

Hon. Shelley Moore Capito, a Representative in Congress from the 
  State of West Virginia, request to submit ``Recommendations to 
  Incorporate Public Health Components to Senate Bill 373,'' by 
  Rahul Gupta, M.D., M.P.H., F.A.C.P., executive director/health 
  officer, Kanawha-Charleston Health Department, February 3, 2014    23

                        ADDITIONS TO THE RECORD

D. Michael Langford, national president, Utility Workers Union of 
  America, AFL-CIO, comments for the record......................    83
Maya Nye, spokesperson, People Concerned About Chemical Safety, 
  comments for the record........................................    92

----------
\1\ Hon. Joe Manchin III, a U.S. Senator from the State of West 
  Virginia, did not submit a written statement for the record.

  [GRAPHIC] [TIFF OMITTED] T6632.001
  
  [GRAPHIC] [TIFF OMITTED] T6632.002
  
  [GRAPHIC] [TIFF OMITTED] T6632.003
  
  [GRAPHIC] [TIFF OMITTED] T6632.004
  
  [GRAPHIC] [TIFF OMITTED] T6632.005
  
  [GRAPHIC] [TIFF OMITTED] T6632.006
  
  [GRAPHIC] [TIFF OMITTED] T6632.007
  


             THE CHARLESTON, WEST VIRGINIA, CHEMICAL SPILL

                              ----------                              


                       MONDAY, FEBRUARY 10, 2014

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                            Washington, DC.
    The committee met, pursuant to call, at 9:07 a.m., in 
Ceremonial Courtroom 4, Kanawha County Courthouse, Charleston, 
West Virginia, Hon. Bill Shuster (Chairman of the committee) 
presiding.
    Mr. Shuster. The committee will come to order.
    I want to welcome everybody here today to Charleston, West 
Virginia. Thanks for all coming out, especially our panel of 
witnesses today.
    Our first order of business is, I would like to ask 
unanimous consent that Senator Manchin be allowed to sit in the 
hearing today and participate in the questioning.
    Without objection, so ordered.
    Senator, welcome to the Committee on Transportation.
    Senator Manchin. Thank you, Mr. Chairman. I appreciate it 
very much.
    Mr. Shuster. We are pleased to welcome our distinguished 
witnesses today, starting with Rafael Moure-Eraso. I started 
off telling him I apologize, in case I butchered that. He is 
Chairperson of the U.S. Chemical Safety Board.
    Welcome.
    Mr. Michael Dorsey, chief of the Homeland Security and 
Emergency Response for West Virginia Department of 
Environmental Protection; Jimmy Gianato, director of West 
Virginia Division of Homeland Security and Emergency 
Management; Dr. Letitia Tierney, who is the commissioner of the 
Bureau of Public Health, West Virginia Department of Health and 
Human Resources, and State health officer; Gordon Merry, who is 
director from Cabell County--which I guess, Nick, that is in 
your district--Office of Emergency Services; Dale Petry, who is 
the director of the Kanawha County Department of Homeland 
Security and Emergency Management; and Jeff McIntyre, the 
president of West Virginia American Water.
    I want to thank, also, Mrs. Capito for requesting an 
important hearing and hosting the committee here in her 
hometown of Charleston.
    I also want to thank Ranking Member Rahall for working with 
us on this hearing and ensuring that we understand how 
important this issue is to him and his constituents as well.
    And, again, I welcome Senator Manchin for being here today 
and participating.
    And also to Congressman Daniel Webster, a native of West 
Virginia, now representing a district in Orlando, Florida. 
Welcome home, Daniel.
    It is critically important for this committee to be here 
today to hear from the folks who have been on the ground since 
the spill occurred, and to gain an understanding of what has 
happened in this incident.
    I can only imagine how difficult it has been for the 
residents of this region over the last month. The uncertainty, 
the unanswered questions, must be overwhelming at times.
    As Americans, we all should feel safe to drink the water 
that comes out of our faucets. We should be able to take a 
shower without worrying about what is in the water. And we 
should have confidence that our Government leaders are doing 
everything in their power to ensure the safety of the water 
supply. And that is why we are here today.
    The past 4 weeks have, no doubt, been a roller coaster ride 
for everyone here in this region. I know that people are 
concerned, frustrated, and looking for answers.
    Representatives Capito and Rahall and Senator Manchin have 
made it very clear how important it is for us to be here on the 
ground to see and hear firsthand, to truly understand what is 
happening here.
    We are here to get firsthand accounts of what has happened, 
what went wrong, when went right, what needs to be improved. We 
need to focus our attention and work to find solutions for the 
future, to hear directly from those who were at the spill site 
when it first became clear what was happening, and to hear from 
those who have been working day and night since then to help 
clean up and protect those who live here.
    Again, I want to thank everyone who has taken their 
precious time to be here today. I want to, again, thank our 
witnesses for joining us.
    Before I go, as I had to explain to Senator Manchin, who is 
in the Senate, in the House, we have different rules. I pointed 
out in the House, we have a 5-minute rule, so I would ask for 
witnesses to keep your opening statements to 5 minutes. I am 
quick on the gavel. You will hear me tap first when you get 
over. But, again, to move things along, and to make sure 
everybody is heard, we want to make sure that we get through, 
so 5 minutes on the opening statements.
    Your full statements will be in the record. I know you have 
some lengthy pieces of information, which will be in the 
record.
    And again, to my colleagues, if they keep their opening 
statements to 5 minutes and then we will go into questioning. 
The questioning rounds will be 5 minutes. If we need more, we 
will certainly do more.
    With that, I would like to recognize the ranking member, 
Mr. Rahall, for a statement.
    Mr. Rahall. Thank you, Mr. Chairman.
    I join with my colleagues on this dais in welcoming you to 
West Virginia and thank you for taking the time to be with us 
today so that we can be on the ground in the area where it is 
especially important that we hear from the families whose lives 
and livelihoods have been disrupted.
    Yesterday marked 1 month since the chemicals leaked from a 
storage tank at Freedom Industries into the Elk River. One 
solid month since the spill, yet still--and rightly so--there 
is a lingering worry among the people of this area. There is a 
lingering mistrust of what they hear.
    Some of that clearly stems from a lack of accurate 
information at the start, most of which can be traced directly 
to a financially troubled business with deteriorating 
facilities and critically lax safety standards.
    When State DEP officials arrived at the Freedom Industries 
site following a trail of strong licorice scent, workers there 
didn't even know they had a leak. When workers were shown the 
pooling chemical and told to report the leak, they resisted.
    When they finally did report the leak, they claimed the 
chemical was not spilling into the river. Wrong.
    First responders, the water company, public health 
officials, all thought they were dealing with one chemical 
based on information obtained from the company--information 
that was wrong.
    Mr. Chairman, there were distressing blind spots and errors 
long before this spill. But on January 9, confronted with this 
disaster, a lot of people tried to do the right thing. A lot of 
people are still trying to do the right thing. Some of them are 
here with us today, and we will hear their testimony.
    They have been the target of criticism and anger. And, yet, 
they came here today to answer and re-answer and re-answer 
questions and take their lumps.
    I think it speaks volumes that the one entity that is not 
here today--is not here--the one empty seat we will have at 
that witness table, if there was room for that empty seat, 
belongs to the one entity at the epicenter of all of this, the 
one who totally blew it and then gave the bad information on 
which every effort to respond to the spill was built.
    Mr. Chairman, there is an odor emanating from Freedom 
Industries, and it is not licorice. We cannot legislate 
morality into the billionaire corporate boardrooms where shell 
game playing abounds.
    I share the worry and frustration that I see in the faces 
all around this room. I understand the shaken confidence.
    Were there mistakes made? Yes. Are there loopholes in the 
law that must be closed? Yes.
    As you have stated, Mr. Chairman, we are here to listen and 
learn and do all that we can to help prevent this type of 
crisis from recurring.
    I have chosen not to endorse legislative proposals yet, 
until after this hearing and hearing first directly from those 
at this hearing to ensure that our efforts in Congress are as 
thorough as possible, and that the Federal Government will not 
place demands from on high, but work with our State and local 
governments to ensure that any new laws work together to 
eliminate loopholes.
    A cloud of suspicion and fear may be hanging over this 
region for some time. But, speaking as a West Virginian, I hope 
we can channel these energies into positive change for our 
State.
    Above all, the communities, businesses, and families 
deserve definite answers. People have a basic right to know, 
and Government has a fundamental obligation to inform the 
public whether or not their water supplies are safe.
    In conclusion, Mr. Chairman, in a Congress that is so often 
divided, you have not let party differences stand between us 
and working to address the needs of the people we serve. I 
thank you, again, for your interest in the families in this 
area and for taking the time to be with us today.
    And I believe you have already done this, but if not, I 
would ask unanimous consent that the record be open for 30 days 
to allow people who want to submit their testimony to us will 
be made part of the record.
    Mr. Shuster. Without objection, so ordered.
    I now recognize Mrs. Capito.
    Mrs. Capito. Thank you, Mr. Chairman. Thank you for 
bringing the committee to my home county of Kanawha, and 
Charleston. I am pleased to be here with my colleagues.
    The chemical spill occurred just a few miles from where we 
sit, and it had a devastating effect on 300,000 people in a 9-
county region.
    Small businesses were forced to close. A lot of folks went 
without paychecks. And residents went without potable water.
    Our community is angry, anxious, and we need answers to how 
the spill occurred, the health effects, and how we can help 
prevent it from happening again. That is what we are here today 
for.
    Last week, 14 schools in Kanawha County reported smelling 
the odor. Three of those the schools were closed as a result, 
and several illnesses were reported. Those events demonstrate 
that, a month after the spill, the effects still continue.
    I live in Charleston, and I use the water myself. Like 
everyone in this room and everyone in this community, we just 
want to have the confidence that the water coming out of our 
faucets is safe, and our families are safe as well.
    Many West Virginians lack that confidence today. I think 
``confidence'' is going to be the word we are going to be 
hearing quite a bit.
    Unfortunately, we won't be able to answer questions, as my 
fellow Member from West Virginia talked about, from one of the 
relevant parties today. The president of Freedom Industries was 
invited to appear before the committee. We gave them the 
opportunity to answer this committee's questions, questions 
that residents across this community have also been asking, and 
to explain its many failures that have hurt so many families 
and businesses.
    Unfortunately, he chose not to be here today to answer for 
what his company has done. I find that extremely telling.
    If he were here today and had the courage to come, I would 
have asked him this: When did you learn that a chemical was 
leaking from a tank at your facility? Why did it take so long 
to report that spill? How did you not know for 12 days, or 
report, that a second chemical was a part of the mixture? And 
do you accept any responsibility for the catastrophic harm you 
have caused our community?
    Their decision not to testify today compounds its gross 
misconduct, and it is an absolute affront to every person 
impacted by the spill.
    With that, I want to thank all the witnesses that are here 
today, not only for what they are doing today, but for what 
they have done over the past month. This will help us gain a 
better understanding on what happened on January 9.
    We need to learn from West Virginia and American Water when 
it learned of Freedom's spill, how it made the decision to keep 
the water flowing, and why the company did not know in advance 
of the spill what types of chemicals were stored in tanks just 
upriver from the water intake.
    We need to learn from the local responders, and they did a 
wonderful job--and thank you so much--how they mobilized and 
what we can do to improve their situation.
    From the Division of Homeland Security, we need to know the 
current status of water testing in public facilities across the 
impacted area, and the State's plan for targeted--I noticed 
this is a discussion of late--in-home testing around the 
region.
    Many citizens are concerned about the flushing protocols, 
and we need to know the successes and failures in cleaning up 
the water system.
    From the DEP, and we need to learn about the initial 
response to Freedom Industries' site, the agency's plan to 
inspect similar facilities, and the implementation of both 
State and Federal environmental laws.
    And from the Department of Health, we need to learn how 
testing protocols and safety standards were established, and 
make sure that people are provided with accurate and timely 
information.
    One of the scariest parts of this incident, I think, 
occurred on Thursday, when the CDC advised that pregnant women 
may wish to avoid the water until all traces of MCHM were 
removed after first announcing that a universally applicable 
safe standard had been reached.
    Senator Manchin and I wrote to the CDC asking for testing 
protocols and about the agency's confidence in the health 
impact study, but their letter was severely lacking in the 
details that we needed.
    We invited the CDC to come here today. They declined that 
invitation, but they are working in an advisory role in 
assisting the State of West Virginia. We can learn from 
participation of State officials in settling the no-health-
impact standards.
    Finally, from the Chemical Safety Board, we need to gain 
perspective on how this occurred, and how we can prevent it 
from happening again.
    To spur development of State programs, the State has done a 
great job, but I will be introducing the Ensuring Access to 
Clean Water Act when I return to Washington this evening. This 
bill requires the inspection of aboveground storage tanks like 
the one that leaked at Freedom Industries; creates standards 
for the oversight of chemical storage facilities; and ensures 
that water utilities are given information about chemicals 
stored upstream, together with a plan on how to address 
emergency situations.
    The West Virginia Legislature is considering legislation to 
address this issue, and Senator Manchin has proposed 
legislation that is similar to the bill I will introduce 
tonight.
    I want to thank everyone for coming, and I look forward to 
your testimony, and also the opportunity to ask those questions 
that I mentioned.
    Thank you.
    Mr. Shuster. Thank you.
    And now with that, Senator Manchin is recognized for 5 
minutes.

  TESTIMONY OF HON. JOE MANCHIN III, A U.S. SENATOR FROM THE 
                     STATE OF WEST VIRGINIA

    Senator Manchin. Thank you, Chairman Shuster, and Ranking 
Member Rahall, Congresswoman Capito, and Congressman Webster 
for holding this hearing today to give it the national 
attention it deserves.
    I do understand the rules of the House, and I will more 
than abide by them. And I appreciate you having me as part of 
this. Bipartisan, bicameral--we need more of this. We really 
need do. And it sets a good example for all of us, so thank 
you.
    On January 9, as has been said, a month ago yesterday, 
thousands of gallons of crude MCHM leaked from a storage tank 
into the Elk River contaminating the drinking water of 300,000 
West Virginians. In the immediate aftermath and the days since, 
I have been in continual contact with the CDC and the EPA, 
trying to assist and help the State. I know the State has been 
in contact with them also, and I appreciate that. We will be 
hearing your testimonies on that today also.
    The CDC has determined that the water is appropriate--and I 
say the word ``appropriate''--to drink. I am not sure of the 
definition of ``appropriate,'' but I am trying to get into that 
more, and I am sure you will be able to clear that up today 
also.
    They say levels are below the 1 ppm--and I know we have 
questions about that--benchmark. And then the nondetect level 
is supposed to be 10 ppb, which is 100 times more stringent 
than 1 ppm.
    I am using, I am personally using, we have a little 
townhouse here, I am personally using the water as I normally 
would use it. But I know a lot of don't people feel that way. 
And I believe that the people, and I believe the State will 
accommodate them having the ability to have it tested. I 
believe that will all happen. I really do.
    And with that being said, in our State, we have always done 
hard work. We have worked hard. And we continue to work hard. 
We are hardworking people to produce the energy and chemicals 
that power this country. But that cannot come at the cost of 
access to safe and clean drinking water or to the safety and 
confidence of the people of West Virginia.
    We have always said, if you can't do it right, don't do it. 
If it is not safe, don't do it.
    But with that, we think there is a balance between the 
environment and the economy that can be found, if we all have a 
desire to do that.
    The spill should have never have happened. There is no 
excuse for it. It really shouldn't have happened. And as 
Congress, it is our responsibility to do everything we can to 
keep it from happening again, not just in West Virginia, but 
anywhere in the United States of America.
    This is a wakeup call for this country. We were on the 
front end of this, but it is a wakeup call for the country.
    That is why I work with Senator Boxer, who is the chairman 
of the Environmental and Public Works Committee, to develop the 
Chemical Safety and Drinking Water Protection Act. It basically 
does things that we thought were already being done. We thought 
that all aboveground storage probably was being tested and 
checked, not knowing that there was no laws on the book--if it 
was not a hazmat material, that it didn't have to be.
    And really, the EPA or the DEP didn't have any authority or 
power to go into these areas and do the testing. And I talked 
to Speaker Boehner about that. He is committed to helping and 
working with us. And our colleagues on both sides of the aisle 
are committed to fixing this. So I am very appreciative of 
that.
    This bill sets minimum Federal standards that chemical 
facilities must meet, including construction and leak detection 
requirements, fail-safe containment standards, and the 
development of emergency response plans. Our bill also requires 
that companies meet financial responsibility requirements. 
Taxpayers should not be forced to pay for the monetary damages 
incurred from this incident or any other chemical spill.
    Additionally, companies must inform the State, the EPA, and 
local water systems of the chemicals they store. However, that 
information is helpful only if we have adequate health and 
safety data on these chemicals.
    That is why I am also cosponsoring and totally committed to 
the Chemical Safety Improvement Act, which would, for the first 
time in 42 years--think about this; 1976 is the last time we 
ever tried to find out what chemicals we are using and how it 
affects humans.
    There are 84,000 chemicals used by Americans every day in 
every form, and the extremely outdated Toxic Substance Control 
Act is 1976. It is unbelievable.
    Under the Chemical Safety Improvement Act, States should 
request and could request that EPA prioritize the testing of 
specific chemicals, including those held near waterways. Even 
if they are not a hazmat or determined to be a hazmat material, 
everybody in every State is responsible for identifying any 
possibility and also having the CDC and the EPA test at the 
highest levels as if they were toxic.
    And for the chemicals like MCHM, the overwhelming lack of 
health and safety data is one of the criteria for designating a 
chemical as high priority.
    The bottom line is that no West Virginian or American 
should have to worry about the contamination of their water 
supply from a chemical spill, and I will do everything, working 
with my colleagues, to enact legislation to protect safe 
drinking water.
    These two bills would go a long way in ensuring that every 
American has access to safe drinking water, and that if, God 
forbid, an incident like this occurs again, we have the tools 
to respond as quickly and as effectively as possible. It is 
unconscionable to think that we did not know sooner than we 
did.
    And today I am asking all West Virginians, the EPA, the 
CDC, and West Virginia DEP, and all of us who are involved and 
could be involved and should be involved, to join me and my 
colleagues in pledging to make sure that we come out of this 
bigger and better. The water in West Virginia should be the 
cleanest and safest in America.
    I want to thank you, and that should be our goal today. 
Thank you.
    Mr. Shuster. Thank you, Senator.
    And with that, I recognize Mr. Webster for an opening 
statement.
    Mr. Webster. Thank you, Mr. Chairman, and thank you for 
hosting this forum. I think it is very, very important for this 
area.
    I am from Orlando, Florida, now, but I am a fifth 
generation West Virginian. I was born here in Kanawha County 
close by, at St. Francis Hospital. I have a lot of relatives 
here. I ate dinner with five of them last night, two get their 
water from St. Albans and had no problem. Three did not, and 
they are concerned. They are still drinking bottled water, even 
though it is supposedly OK to not do that. They are just 
afraid.
    And I would imagine there are a lot of citizens out there 
who are afraid, so I appreciate this opportunity.
    My dad's family was from Winfield. They moved there in 
1862. My mom was from a place in Roane County called Rush Fork 
and Green Creek. I have no idea where that is, but it is 
somewhere. And both were longtime farmers. Both depended on the 
water here.
    It is an important commodity. It is the lifeblood of our 
community. And so I appreciate just the opportunity to be here 
and to have an opportunity to participate in this.
    This also, certainly, has nationwide implications, and 
there are some things here I hope we will learn to prevent this 
from happening in other places in the country.
    Thank you, Mr. Chairman.
    Mr. Shuster. Thank you, Mr. Webster.
    Before I get to the witnesses, I might add that I am from 
Pennsylvania. My district is western Pennsylvania, parts of 
Greene County and Fayette County, which border West Virginia. 
And growing up in Bedford County, very close to the West 
Virginia border. So as I like to tell my colleagues, Mr. Rahall 
and Mrs. Capito, we are kissing cousins in western Pennsylvania 
to West Virginia. And good, hardy, hardworking people in 
western Pennsylvania and West Virginia.
    So again, I just wanted folks to know that I'm not from the 
other part of Pennsylvania--Philadelphia, as we call it.
    So with that, again, I encourage the witnesses to keep to 5 
minutes, because I think the really important part of this is 
the questioning. Hopefully, we can have a couple rounds of 
that.
    And we will start to my left with Dr. Moure-Eraso.
    Before it is all over, I will get it down.
    Go ahead, Doctor. You are recognized.

  TESTIMONY OF RAFAEL MOURE-ERASO, CHAIRPERSON, U.S CHEMICAL 
    SAFETY BOARD; MIKE DORSEY, CHIEF, HOMELAND SECURITY AND 
 EMERGENCY RESPONSE, WEST VIRGINIA DEPARTMENT OF ENVIRONMENTAL 
PROTECTION; JAMES A. GIANATO, DIRECTOR, WEST VIRGINIA DIVISION 
   OF HOMELAND SECURITY AND EMERGENCY MANAGEMENT; LETITIA E. 
 TIERNEY, M.D., J.D., COMMISSIONER, BUREAU FOR PUBLIC HEALTH, 
  WEST VIRGINIA DEPARTMENT OF HEALTH AND HUMAN RESOURCES, AND 
  STATE HEALTH OFFICER; GORDON MERRY, DIRECTOR, CABELL COUNTY 
OFFICE OF EMERGENCY SERVICES; DALE A. PETRY, DIRECTOR, KANAWHA 
     COUNTY DEPARTMENT OF HOMELAND SECURITY AND EMERGENCY 
 MANAGEMENT; AND JEFFREY L. MCINTYRE, PRESIDENT, WEST VIRGINIA 
                         AMERICAN WATER

    Mr. Moure-Eraso. Thank you, Chairman Shuster, and Ranking 
Member Rahall, also Congressman Webster and Congresswoman 
Capito, and Senator Manchin. I am honored to be here.
    I am Rafael Moure-Eraso. I am the Chairperson of the U.S. 
Chemical Safety Board, or the CSB, from Washington, DC.
    There are a few things that people here in West Virginia 
will never take for granted again, common acts, such as using 
tap water to prepare dinner for your family or drawing a bath 
for your child, and everyday activities that quickly became 
impossible for approximately 300,000 people on January 9, 2014.
    It is clear to me, as Chairman of an independent Federal 
agency charged with investigating industrial chemical 
accidents, that urgent steps are required to significantly 
improve the safety of facilities that handle hazardous 
chemicals. The chemical sector is vital for our economy, yet 
potentially hazardous to those who live near the thousands of 
facilities that process or store these hazardous chemicals.
    The CSB has 41 employees, half of whom are professional 
accident investigators with highly technical skills. Currently, 
the CSB has a four-member team in the field investigating this 
particular accident.
    Heading the team and with me is the supervisory 
investigator, Johnnie Banks. And also with me today is Hillary 
Cohen, our communications director back there.
    First, I think, it is important to discuss the history that 
the CSB has had investigating accidents in the Kanawha Valley. 
This is our third deployment to a major chemical accident in 
the valley.
    In 2008, two workers were fatally injured at the Bayer 
CropScience chemical plant in Institute when a waste tank 
containing the highly toxic pesticide methomyl violently 
exploded.
    Then in 2010, three incidents occurred in a 33-hour period 
at the DuPont Belle facility. There was a release of highly 
toxic phosgene, exposing a veteran operator and resulting in 
his death 1 day later.
    Following the CSB's investigation into these two places, 
Bayer and DuPont, the board recommended that the county, 
working with the State, establish a hazardous chemical release 
prevention program to enhance safety and optimize emergency 
response.
    The CSB recommended that the Health Department establish an 
industrial safety authority, paid for using fees assessed on 
the companies processing or handling potentially dangerous 
chemicals.
    As an example, we cited the successful program in 
California's Contra Costa County, which has an equally dense 
industrial chemical base.
    Although no regulatory program is 100 percent effective, in 
Contra Costa, the program has reported a dramatic decrease in 
serious incidents over the years without any adverse impact on 
employment or the business community.
    State and local authorities in West Virginia tell us that 
they considered our recommendation but due to a number of 
reasons, including funding, it has not been adopted.
    The CSB's previous recommendations aim at empowering a 
Government agency to determine just what poses a high hazard. 
Perhaps qualified inspectors would have considered aging 
chemical storage tanks located just upstream from a public 
drinking water treatment plant to be potentially ``highly 
hazardous'' and worthy of a closer look.
    I am very encouraged by the recent efforts mentioned here 
of legislators, including Representative Capito and Senator 
Rockefeller and State Delegate Skinner, who are all seeking to 
have the CSB recommendations implemented to protect West 
Virginia residents and business.
    I thank you all, and let's work together to get this done.
    All of us here today are all too aware of the recent events 
that occurred at Freedom Industries. A significant amount of 
the chemical that we are discussing, MCHM, containing also the 
propylene glycol phenyl ether as part of it, was released in 
the Elk River, and eventually reached the Kanawha River.
    Today, I am here to discuss some preliminary findings into 
the CSB's ongoing investigation.
    In October 2013, at the request of the company, tank 
engineering and management consultants performed a review of 
the tank terminals located in Charleston and Nitro. The 
evaluation was conducted and approved by an American Petroleum 
Institute 653 and 570 certified inspector, who also has 
credentials as a National Association of Corrosion Engineer.
    That review notes that the substances stored in tank 396 
consisted of nonhazardous materials. And as we said before, 
this is a qualification. It is a legal statement. It doesn't 
reflect the problem that we are seeing here in the ground.
    Mr. Shuster. Doctor, I am going to ask you wrap up.
    Mr. Moure-Eraso. OK, yes.
    The CSB has determined that the secondary containment wall, 
which was composed of cinder blocks and surrounded tank 396, 
provided very little protection from a possible release.
    Moving forward, the CSB will closely examine tank 396. We 
plan to complete a thorough internal inspection of the tank to 
determine the tank thickness, and we will examine design, 
materials of construction, inspection practices, and State and 
Federal oversight.
    The team will also examine the response to the leak once it 
was discovered. And we will have information readily available 
for the public as the issue is developed. And we would like 
also to make recommendations about improvements to the Toxic 
Substances Control Act.
    I would like to conclude by strongly commending Senator 
Manchin, Senator Rockefeller, and Senator Boxer for promptly 
introducing legislation aimed at safeguarding water supplies 
from chemical leaks.
    We are making recommendations of inherently safe----
    Mr. Shuster. Doctor, we will include that all in the----
    Mr. Moure-Eraso. We will continue coming to this community 
to keep you informed of the progress of our investigation.
    Thank you.
    Mr. Shuster. Thank you. Your full statement will be 
included in the record. And we will all have that.
    Mr. Dorsey, you are recognized for 5 minutes.
    Mr. Dorsey. Thank you, Chairman Shuster, members of the 
committee, Senator Manchin.
    As one of the first State responders onsite, and as someone 
who is still involved in remediation of the site, I appreciate 
this opportunity to offer my perspective on the event, and 
offer a few thoughts on related issues.
    After the release was discovered by investigators from the 
Department of Environmental Protection's Division of Air 
Quality, I was contacted by a supervisor and arrived at the 
site with a chemist from my staff at approximately----
    Mr. Shuster. Mr. Dorsey, could you pull your mic closer to 
you?
    Mr. Dorsey. Certainly.
    Mr. Shuster. Thank you.
    Mr. Dorsey. At this time, it was apparent that the MCHM, 
and as we later learned, propylene glycol phenyl ether, or PPH, 
was leaving the facility through a drain pipe that runs below 
the tank farm and leaking through a retaining wall that was 
part of the facility's secondary containment.
    The drain pipe was leaking through a rusted bottom into an 
erosion ditch about 5 to 10 feet below the containment wall, 
and the material that was exiting through the wall was draining 
directly into a rubble-filled swale that is located where an 
old fire suppression intake had been located.
    Company officials had, by this time, placed an absorbent 
boom at the point where material was leaking through the wall.
    As we investigated the spill scene, we could see that the 
MCHM was entering the river from both on top of and below an 
ice shelf that extended approximately 10 feet from the shore 
into the river.
    After reviewing the Material Safety Data Sheet for the 
MCHM, a water company official stated that he thought the 
problem could be addressed by adding additional activated 
carbon to the water plant filters.
    I handed the investigation over to our enforcement group 
and left the scene at about 2:45 p.m.
    It was not until about 4:20 p.m. that I started receiving 
calls detailing the larger water contamination problem. Since 
that time, remediation efforts have continued at the site.
    Remediation activities at the site have included the 
installation of collection sumps in the tank area; interceptor 
trenches; and the aggressive management of offsite water, 
rainwater, and snowmelt. While these remediation efforts are 
ongoing and successful, a number of investigations are also 
taking place by State, Federal, and private parties: The U.S 
Chemical Safety and Hazard Investigation Board, the Federal 
prosecutor's office, the Office of the West Virginia Attorney 
General, the bankruptcy plaintiffs, and others. These 
investigations are, by and large, necessary, but they also slow 
remediation efforts in the vicinity of the tank that spilled 
the material. It is hoped that within a week all of the 
investigations will have reached a point so the tank area will 
be possible.
    An interesting issue with MCHM and PPH is their relative 
lack of toxicity. The problems that the release caused are very 
real, and there is no doubt that the ``do not use'' order was 
the right thing to do. But there is relatively little data, 
because of the lack of toxicity, on the chemicals.
    In a world where deadly chemicals such as methyl 
isocyanate, dioxins, and others grab all the headlines, little 
thought is given to those less toxic, but ubiquitous, chemicals 
that can wreak havoc with our lives like these chemicals have.
    Neither of these chemicals is even considered to be 
hazardous materials by State or Federal laws.
    The Toxic Substances Control Act of 1976 is a Federal law 
that was designed to serve as a safety net for chemicals that 
were not regulated by other programs. Due to lack of support, 
it has never fulfilled its responsibilities. Potentially 
harmful chemicals are not receiving the review and study they 
were meant to have.
    Today, a bipartisan bill, the Chemical Safety Improvement 
Act, is struggling in the U.S. Congress. It is designed to 
address the shortcomings of TSCA and provide that safety net 
that is supposed to be provided by that law. The bill is not 
perfect. But it can be fixed, and it deserves to be fixed.
    Of more immediate interest are bills currently moving 
through Congress and the West Virginia Legislature that will 
provide for the regulation of aboveground storage tanks, much 
as underground storage tanks are regulated. I see this as a 
complementary effort to the bill mentioned above.
    Ensuring that aboveground storage tanks are structurally 
sound and have adequate secondary containment seems like simple 
common sense today. But before the Freedom Industries release, 
the general thought process was that if the material in a given 
tank wasn't regulated by any of the multitude of State or 
Federal programs, it was probably harmless to both public 
health and the environment. The fallacy of that type of 
assumption is clear now.
    A positive note in this unfortunate episode has been the 
working relationships between various State and Federal 
agencies. In particular, the relationship between DEP and the 
Environmental Protection Agency has been one of mutual respect 
and cooperation. Decisions have been made cooperatively, 
allowing the State and Federal Governments to speak with one 
voice to the public, as well as the responsible party.
    The Freedom Industries release caused approximately 300,000 
people to be without water. People became ill. Pregnant women 
were advised not to drink the water. But it could have been 
much worse. There are far more toxic and equally unregulated 
chemicals in tanks throughout the country.
    Let this incident be a wakeup call for the entire Nation.
    Thank you.
    Mr. Shuster. Thank you, Mr. Dorsey.
    And with that, Mr. Gianato is recognized for 5 minutes.
    Mr. Gianato. Good morning, Mr. Chairman, Congressman 
Rahall, Congresswoman Capito, Congressman Webster, and Senator 
Manchin. Thank you for the opportunity to be here this morning 
to speak with you.
    At approximately 4:50 p.m. on January 9, I received a call 
from the West Virginia Department Health and Human Resources 
Bureau of Threat Preparedness, advising that in 10 minutes 
there would be a call to discuss an imminent announcement by 
West Virginia American Water that they were going to issue a 
``do not use'' order due to chemical contamination of their 
water treatment facility and system.
    As a result of our prior planning, we immediately knew that 
the loss of the water facility would impact a large number of 
hospitals, schools, nursing homes, residences, and businesses. 
The West Virginia American Water treatment facility and 
distribution system serves commercial and residential customers 
in a nine-county region.
    The interdependencies associated with this loss include 
hotels, restaurants, dairies, as well as farming facilities and 
many other industries that depend on potable water to operate 
safely.
    Governor Tomblin immediately declared a state of emergency 
for the nine counties impacted, and the State Emergency 
Operations Center was fully activated.
    Based on media and law enforcement reports, after the order 
was broadcast, citizens were rushing to stores to purchase 
water, and the stock was quickly being depleted.
    Governor Tomblin requested an emergency declaration from 
FEMA that was granted seeking support from the Federal 
Government.
    Over the next days and weeks, FEMA would provide over 456 
trailers of water, which is equivalent to over 8.6 million 
liters, and over 100,000 boxed meals, which were essential to 
supplement water purchased by the State and received from the 
numerous donors.
    The division requested the activation of the West Virginia 
National Guard 35th Civil Support Team. This team, which is a 
key resource to the State, is a full-time federally funded 
State asset specializing in weapons of mass destruction and 
chemical, biological, radiological, nuclear explosive response. 
The men and women of this unit have been deployed for this 
incident since the initial hours, and they continue to serve.
    Over the course of the event, six additional civil support 
teams from neighboring States have assisted.
    Initial testing was performed to screen to a Center for 
Disease Control threshold of 1 ppm of MCHM in drinking water. 
All areas of the system have been tested and cleared to that 
level.
    Twelve days into this event, Freedom advised DEP that an 
additional product, PPH, had been mixed with the MCHM and had 
leaked into the river as well. Little was known about PPH, and 
we immediately began conducting research to identify the 
manufacturer and make contact with them to obtain the most 
current information on this product to share with the CDC and 
the interagency team that was involved in water sampling.
    Upon learning that the second chemical PPH was in the MCHM 
that leaked, testing was done to check for PPH as well as MCHM 
in the water samples. In order to help us build on the 1 ppm 
testing that was done, and to create a higher level of 
confidence in the safety of the water, systematic testing was 
done to clear all zones at a laboratory nondetectable level of 
10 ppb.
    The water distribution throughout this event has been a 
collective effort of multiple agencies at the Federal, State, 
and local levels. Local agencies and volunteer groups have 
distributed water to individual citizens who could not travel 
to distribution sites.
    As we continue to move forward, we must learn from this 
event. What happened in Charleston, West Virginia, could happen 
in any town or city in the United States that has a similar 
water system located in a similar geographic footprint. We must 
capture the many lessons learned, using them as a catalyst to 
continue to strengthen our infrastructure security and 
resiliency posture.
    We will use this event to more fully understand the 
interdependencies of our critical infrastructure, and to 
improve our State and local emergency response plans.
    I would be remiss if I did not recognize the numerous first 
responders at all levels that worked tirelessly on this 
response and continue to do so. I also want to thank the 
hardworking men and women of the Division of Homeland Security 
and Emergency Management and all of the interagency partners 
that worked with us during this event and every event that we 
do.
    I also want to recognize the private sector partners who 
provided support to us and the many who donated water and 
supplies, as well as many volunteers who worked tirelessly 
throughout this month.
    I also feel it is important to recognize the Governor and 
his staff who worked diligently to support the agencies and the 
citizens of our State. He has already appointed an after-action 
review team to analyze our response and make recommendations 
for improvement.
    Our goal is to make sure that an event like this never 
happens again. But if it does, we will be better prepared to 
respond and to mitigate it.
    Mr. Chairman, and members of the committee, I thank you for 
inviting me here this morning, and I will be glad to answer 
questions at the appropriate time.
    Mr. Shuster. Thank you very much.
    And with that, Dr. Tierney is recognized for 5 minutes.
    Dr. Tierney. Good morning, Mr. Chairman, and thank you, 
Congressman Rahall, Congresswoman Capito, Congressman Webster, 
and Senator Manchin.
    I am Dr. Letitia Tierney. I am State health officer and 
commissioner of the Bureau for Public Health. I am both a 
physician and a lawyer, and I was born and raised here in West 
Virginia.
    And for Congressman Webster, I was born at the General 
Hospital here in Charleston.
    My undergraduate degree and my medical degree are both from 
West Virginia University.
    I am honored to be here today to represent the hardworking 
men and women across the Bureau for Public Health who work 
daily on behalf of all West Virginians--from the healthiest to 
the most vulnerable of our population.
    As commissioner and State health officer, my focus is on 
community health, ensuring the safety and well-being of West 
Virginia's population. And I very much appreciate the 
opportunity today to make a brief statement as to the Bureau 
for Public Health's role during the events that first began on 
January 9, 2014.
    First, the mission of the Bureau for Public Health is to 
have healthy West Virginians in healthy communities and to 
shape the environments within which they can be safe and 
healthy.
    We rely on science and evidence-based medicine for 
virtually every decision we make. This belief has guided the 
Bureau for Public Health's response.
    From the time West Virginia American Water issued the ``do 
not use'' advisory, the DHHR set up its Health and Medical 
Incident Command Unit at the Center for Threat Preparedness. 
Experts from across the Bureau for Public Health and from our 
partner networks were engaged in that command structure.
    Immediately, we began reaching out to local health 
departments, hospitals, schools, and long-term care facilities 
to quickly announce the discontinuation of all water use.
    The bureau's Office of Epidemiology and Prevention Services 
spearheaded plans to put in motion health surveillance across 
the nine-county area.
    At the same time, we began collaborating with the West 
Virginia Poison Control Center, which served as an 
informational resource for concerned residents. It is led by a 
doctor of pharmacy with significant experience in toxicology 
who served as an immediate resource for health care providers 
and the public alike. They also helped us track patients and 
their conditions.
    The bureau's Office of Environmental Health Services began 
overseeing an interagency team led by the National Guard in 
collecting water samples. The bureau's director of infectious 
disease epidemiology reached out to the CDC to learn more about 
the chemical and to obtain guidance on a screening level for 
MCHM.
    The CDC's toxicologists developed a very conservative 
screening level for the drinking water at 1 ppm. Therefore, the 
Bureau for Public Health, on the advice of the CDC, set the 
threshold for lifting water zones after 24 hours of results at 
1 ppm or less.
    From the beginning, a valuable collaboration made up of all 
stakeholders at the local, State, and Federal level was 
created, allowing for the timely sharing of information in 
order to provide the best possible service to our citizens.
    The water has been repeatedly sampled and tested at 
multiple points across the affected region, using split samples 
to ensure testing results were consistent at multiple labs, 
including the bureau's Office of Laboratory Services.
    Seven days into the response, and 2 days after the first 
zones had been reopened, the CDC issued a letter to the DHHR 
suggesting an advisory be issued to pregnant women to not drink 
the water until the MCHM results were at undetectable levels, 
out of an abundance of caution.
    The Bureau for Public Health asked CDC to clarify their 
advisory. It was explained to us that all populations, 
including pregnant women, were included in the original 
assessment of the screening level at 1 ppm, and that the 1 ppm 
screening level was set at a very conservative level.
    However, the CDC explained that the advisory was 
precautionary and issued only out of an abundance of caution.
    Then nearly 2 weeks into the event, we were informed that 
Freedom Industries had reported to the DEP a second chemical, 
``PPH, stripped,'' was also spilled into the river on January 
9. This chemical was stored in the same tank and was estimated 
to be approximately 7 percent of the total volume.
    The intra-agency team went back and retested historic water 
samples. The CDC and their partners also rolled up their 
sleeves and went back to work to help us obtain critical data 
on PPH.
    This was complicated by Freedom, who initially provided us 
with the incorrect Material Safety Data Sheet, which resulted 
in a delay in obtaining the appropriate screening level from 
our Federal partners.
    Fortunately, virtually every sample retested for the PPH 
was at nondetectable levels.
    Today, the Bureau for Public Health continues to oversee 
water testing. However, the public confidence level in the 
water quality is still low.
    Moving forward, the Bureau for Public Health will continue 
to work on health and community assessments. Hospital 
surveillance began within 24 hours. And now, we are working 
with the CDC to initiate a community assessment study. This 
with the health surveillance we initiated within the first 24 
hours of the event are the first steps.
    Once these data sets are fully assessed, we will be able to 
use a more reasoned approach to evaluate the best method for 
population surveillance for possible long-term effects. Rushing 
into a decision is not in the best interest of public health, 
and this is not something we want to get wrong. We want to make 
sure that our surveillance, whether it be research, a registry, 
or other method, will yield us the data we seek in a 
statistically significant and reliable manner.
    This is the heart of the mission of the Bureau for Public 
Health. It is what we do every day. We have been actively 
engaged in this event since day one, and for us, our job is 
really just beginning.
    Water is fundamental and impacts every part of West 
Virginia and everything we hold dear.
    So I thank you for your time.
    Mr. Shuster. Thank you.
    And with that, Mr. Merry is recognized for 5 minutes.
    Mr. Merry. Thank you, Chairman, Congresswoman Capito, 
Congressmen Webster and Rahall, Senator Manchin.
    I am going to kind of give you the aspect of the responder. 
I mean, all this has been about the chemical itself, but the 
responders and what we did in Cabell County.
    The issue regarding the water that the customers initially 
got was they were restricted to the eastern portion of Cabell 
County. For that reason, Culloden Volunteer Fire Department was 
asked for their assistance in being the water distribution 
site.
    That evening, the Huntington Area Food Bank was notified of 
the situation and a request made for bottled water. The food 
bank brought all of the bottled water and soft drinks they had 
on hand for distribution at the fire department.
    Cabell County Emergency Service brought a 400-gallon 
military water buffalo to the fire department. This provided 
the ability to fill containers brought by the public.
    The town of Milton, the mayor, Tom Canterbury, were 
notified, and a request made from the town of Milton water 
department to fill the water buffalo. It should be noted that 
the town of Milton water department supplied water to fill the 
water buffalo, as well as the West Virginia National Guard 
water buffaloes, during this situation--which Milton is on its 
own water system, so we were not.
    Myself and the sheriff of the county, I notified Sheriff 
McComas of the developing situation and discussed the potential 
of problems, panic at the fire department distribution site. 
Sheriff McComas immediately dispatched deputies to secure the 
water distribution site. Deputies remained at the distribution 
site for security until the site was closed.
    I contacted the county commission concerning the situation 
in response to that point. The commission gave myself the 
authorization to do whatever is needed to be done to ensure the 
residents of Cabell County and Culloden area had safe water.
    The State of West Virginia EOC stood up and communications 
were established between that entity and Cabell County. There 
was not a firm time as to the arrival of water from the State 
or FEMA resources.
    Due to the lack of available water in Cabell County and 
surrounding counties by private vendors, a decision was made to 
send two Cabell County EMS personnel to Louisa, Kentucky, to 
purchase bottled water and hand sanitizer. Since there was no 
estimated ETA on the emergency resources, a Cabell County 
Sheriff's Department vehicle was loaded with water and hand 
sanitizer, and routed immediately to the Culloden Volunteer 
Fire Department.
    Myself and Sheriff McComas went to Eagle Distributing in 
West Huntington to explore the possibility of donation of 
canned water from Anheuser-Busch Companies. Representatives 
from Eagle were able to secure the contribution and an ETA 
would be Sunday morning, January 12. Eagle paid for the 
shipping costs, as well as provided staff and equipment to 
offload the 2,200 cases of canned water.
    Several attempts were made to contact representatives from 
West Virginia American Water with negative results.
    Bottled water and a military water buffalo were delivered 
by the West Virginia National Guard to Culloden fire 
department. These deliveries continued upon request during the 
duration of the situation. Myself and the sheriff drove two 5-
ton trucks to Eagle Distributing to pick up 2,200 cases of 
canned water and deliver it to the Culloden fire department.
    The Culloden fire department maintained a distribution site 
passing out bottled water as provided by the State of West 
Virginia, FEMA, and delivered by the West Virginia National 
Guard.
    This report in no way documents all of the things that were 
done to ensure that residents of eastern Cabell County had safe 
water rather than the process by which the distribution site 
and water were attained, while it would be impossible to 
mention all the people, entities, and resources that assisted 
in the situation. I will stop.
    Mr. Shuster. Thank you, Mr. Merry.
    And with that, Mr. Petry is recognized for 5 minutes.
    Mr. Petry. I would first like to thank the distinguished 
members of the House of Representatives Committee on 
Transportation and Infrastructure for inviting me to speak this 
morning. I am appearing before the committee in my capacity as 
director of Kanawha County Department of Homeland Security and 
Emergency Management.
    My primary purpose for testifying today is to offer a quick 
timeline of events that occurred on January 9, as it relates to 
the chemical spill at Freedom Industries that ultimately 
resulted in a ``do not use'' advisory being issued for 
customers of West Virginia American Water in Kanawha County and 
eight other counties.
    On January 9 at approximately 10 a.m., calls were received 
by Metro 911, reporting a chemical odor in the area of the I-77 
and I-79 split. Metro 911 notified emergency responders of the 
call and C.W. Sigman, the deputy director and fire coordinator 
for Kanawha County Department of Homeland Security and 
Emergency Management, and fire department officials responded 
to the area of Route 119 to Edens Fork to Mink Shoals and along 
Pennsylvania Avenue to look for a possibly leaking truck.
    While responding to these areas, emergency officials could 
smell a licorice smell in the air, but they couldn't find the 
source. So within 30 minutes of the call, they returned to 
service.
    At approximately 10:30, Mr. Sigman returned to the 
Emergency Management Office and notified me of the smell in the 
air and described it as a licorice smell. I told him to check 
the old Pennzoil plant on Barlow Drive, as I was familiar with 
the plant being a possible source for other chemicals stored 
there.
    Mr. Sigman retrieved the Tier II data for the Etowah River 
Plant on Barlow Drive before going to the site. Upon arriving 
at Barlow Drive, Mr. Sigman found a Diversified Services truck 
leaving Barlow Drive.
    There had been previous complaints on this company in the 
St. Albans area, and he suspected that the truck could be the 
source of the smell.
    Mr. Sigman then continued to Freedom Industries, where he 
found two West Virginia Department of Environmental Protection 
Division of Air Quality personnel onsite. DEP officials 
reported to Mr. Sigman that they had received odor complaints 
at DEP, and they responded to the site. And there had been a 
small spill of crude MCHM, and they would talk to facility 
leaders regarding the matter.
    Mr. Sigman provided DEP with a copy of the Tier II reports 
and MSDS for the chemical. Mr. Sigman then left the scene as 
DEP officials said they were handling the situation.
    At approximately 11:30 a.m., my staff issued a media 
release, stating there had been a leak of MCHM at the Freedom 
Industries site and DEP was on scene at that time. The media 
release described the product and its usage.
    At approximately 1:30, Mr. Sigman had then received a call 
from Mike Dorsey with DEP. Mr. Dorsey told him that the spill 
may be larger than originally thought, and it may have leaked 
into the river.
    Mr. Sigman, on his way back to Freedom Industries, checked 
the Elk River where it flows into the Kanawha for any 
indication of the spill. There were no smells or indications of 
any contaminates by looking. There were ice floes on the river 
that day, so it was hard to see much.
    At approximately 2 p.m., Grant Gunnoe, Charleston director 
of Homeland Security and Emergency Services, returned to the 
site of Freedom Industries with Mr. Sigman, and they met with 
DEP officials.
    DEP officials showed them efforts being made to contain the 
leak. Absorbent pads had been placed around the outside of the 
containment.
    A West Virginia American Water representative was onsite as 
well. The representative stated that they would put on extra 
carbon beds to capture any of the material at the water company 
plant.
    An official from Freedom Industries was onsite as well and 
identified himself as Dennis Farrell, president of Freedom 
Industries. We asked him how much of the material had leaked, 
and Mr. Farrell stated ``not much'' and that they would have to 
weigh the amounts removed from the tank already and deduct that 
from the inventory to determine the amount that had been 
leaked.
    Mr. Sigman and Mr. Gunnoe asked DEP officials if they 
needed any further assistance from Emergency Management and 
were told no. They further asked if any notification at the 
time needed to be made to the public and were also told no. Mr. 
Sigman and Mr. Gunnoe then returned to their respective 
offices.
    At 4:30 p.m., Mr. Sigman received a call from Anita Ray at 
the Kanawha-Charleston Health Department, stating that they 
were receiving calls of a licorice type taste in the drinking 
water. The health department was contacting the water company 
to report that information.
    Mr. Sigman then made county management aware of the 
situation and further contacted the West Virginia Division of 
Homeland Security and Emergency Management to make them aware 
of the situation.
    The commission president initiated a call with Dr. Gupta, 
the health official for the Kanawha-Charleston Health 
Department, to make him aware of the situation.
    On my way to 911, I authorized our staff to activate our 
EOC, so that we could have different levels of different 
agencies to help with the response.
    Mr. Sigman from the MSDS report was able to determine that 
Eastman was the manufacturer of the chemical and facilitated a 
conference call with Eastman officials, West Virginia American 
Water, DHHR, and other emergency officials at 8 p.m. to discuss 
the chemical properties.
    Eastman reported to all officials that the product was 
relatively soluble and should wash through the system and was 
readily biodegradable, and odor and taste were the bigger 
issues.
    We immediately started asking for help through the West 
Virginia Division of Homeland Security and Emergency Management 
for their resources. We did receive water and other resources 
through our E-Team that we use constantly within the State.
    And I, like my predecessors, have to thank all the 
volunteers that helped us in distributing all the water that 
they did, because we did have a lot of people helping us out to 
try to make sure the community had safe drinking water.
    Mr. Shuster. Thank you very much, Mr. Petry.
    With that, Mr. McIntyre is recognized for 5 minutes.
    Mr. McIntyre. Mr. Chairman, Mr. Rahall, Mrs. Capito, Mr. 
Webster, and Mr. Manchin, thank you for the opportunity to be 
here today. My name is Jeff McIntyre, and I am the president of 
West Virginia American Water.
    Our approximately 283 employees operate multiple systems 
and 9 water treatment plants, providing water services to 
roughly one-third of the State's population.
    As a steward of a water system that serves more than 
300,000 people in the Kanawha Valley, we take our 
responsibility of providing clean, safe water very seriously. 
It is our number one priority in every decision we make.
    On January 9, an undetermined amount of 4-
methylcyclohexanemethanol leaked into the Elk River from an 
aboveground storage tank at a Freedom Industries facility 
located about 1.5 miles above our Kanawha Valley water 
treatment plant.
    We first learned of the Freedom Industries spill from the 
West Virginia Department of Environmental Protection. We then 
took immediate steps to gather more information about the 
chemical, augment our treatment processes in the Kanawha Valley 
plant, and begin consultations with Federal, State, and local 
public health officials.
    After our water quality team determined that the augmented 
treatment process was not fully removing the chemical, we 
reached a joint decision with the West Virginia Bureau for 
Public Health to issue a ``do not use'' order to all customers 
of our Kanawha Valley system for several critical reasons.
    In addition to loss of water for drinking, cooking, and 
bathing, a shutdown would have quickly resulted in the loss of 
basic sanitation capabilities for approximately 300,000 people.
    A shutdown would also have quickly resulted in a loss of 
fire protection in the nine counties that we serve.
    We had no way, at that time, to determine or estimate the 
duration of the chemical spill or resulting plume that would 
affect the water treatment plant.
    And shutting down the plant, losing the system, then 
restarting it, would have been a prolonged, difficult process, 
keeping customers out of water for any use for a substantially 
longer period of time than the actual period that the ``do not 
use'' order was in place.
    On January 10, the West Virginia Bureau for Public Health 
received guidance from the Centers for Disease Control and 
Prevention and confirmation from the U.S. EPA that a maximum 
level of 1 ppm of MCHM would be protective of public health.
    Levels of MCHM in the river's raw water and the plant's 
treated water have been at less than the CDC designated 
``protective of public health'' level, 1 ppm, since January 13.
    On January 15, based on additional guidance from the CDC, 
we issued another advisory for pregnant women to consider an 
alternative drinking water source until the chemical was at a 
nondetect level throughout the water distribution system.
    On January 18, following extensive, around-the-clock 
testing throughout the system, the last area under the ``do not 
use'' order was lifted.
    We will continue to flush the system and test water at 
designated locations, determined jointly by West Virginia 
American Water and the West Virginia Bureau for Public Health, 
until MCHM levels are nondetectable at all designated sampling 
locations throughout the distribution system.
    On January 21, fully 12 days after the MCHM spill, Freedom 
Industries informed the West Virginia Department of 
Environmental Protection of the presence of a second chemical 
in the spill, a proprietary mixture of glycol ethers known as 
PPH.
    Since this disclosure, a group of chemists, researchers, 
regulators, health organizations, and commercial laboratories 
collaborated in the development of a method of detection for 
PPH at the parts per billion level. Even at this minute 
detection level, only 2 samples out of 300 samples that have 
been tested have shown any trace of PPH, and both of these 
samples were after all customers were already under the ``do 
not use'' order.
    I would like to underscore West Virginia American Water's 
focus during the Freedom Industries chemical spill and 
aftermath. Safety is our number one priority. Continuous 
sampling, testing, and treatment is critical. Our present 
objective is no detectable MCHM in the distribution system 
water.
    We are partnering with local, State, and Federal officials. 
We strive to provide our customers with nothing less than 
clean, safe drinking water.
    West Virginia American Water has always supported laws and 
regulations that promote safe drinking water and has an 
outstanding record of compliance with these requirements. We 
are committed to working with State and Federal officials to 
protect the public health, to protect the public from threats 
to safe drinking water.
    I would like to give my sincere and heartfelt thanks to the 
West Virginia Department of Health and Human Resources, the 
West Virginia Bureau for Public Health, and the West Virginia 
National Guard, as well as other agencies, companies, and 
subject matter experts, who were essential and capable partners 
in the wake of the Freedom Industries spill.
    Thank you for the opportunity to appear before the 
committee.
    Mr. Shuster. Thank you, Mr. McIntyre.
    And I thank all of you. Again, I reassure you your full 
statements will be in the record for the committee.
    I also want to offer a statement, without objection, to the 
record by Senator Rockefeller, who submitted a statement.
    No objection, so ordered.
    It is in the record.
    Also, I understand that Senator Rockefeller's State 
director Rocky Goodwin is here with us today. We welcome her 
today. And I know that Senator Rockefeller is monitoring the 
situation and the events very closely, so we appreciate that.
    With that, we will start the round of questions. I 
anticipate we will have a second round and a third round, if 
necessary. I am going to yield my first 5 minutes to 
Representative Capito to start the questioning.
    Mrs. Capito. Thank you, Mr. Chairman, and thank all of you.
    I would like to, before I begin my questioning, add to the 
record ``Recommendations to Incorporate Public Health 
Components to Senate Bill 373'' by Dr. Gupta, who is the 
Charleston-Kanawha Health Department health officer.
    Mr. Shuster. Without objection, so ordered.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T6632.008
    
    Mrs. Capito. Thank you.
    The big question I hear, Mr. McIntyre, and it is very 
simple, you said safety is your number one priority: Is the 
water safe to drink?
    Mr. McIntyre. As a water company, we don't set the safe 
standards. But we are in compliance with all the standards set 
by the health-based agencies, like the CDC, the West Virginia 
Bureau of Public Health, and we have been since the 13th of 
January.
    Yet, I recognize the customers' fear associated with the 
smell of something in their water. So as a water purveyor, we 
continue to work until the smell is eradicated from the system.
    Mrs. Capito. Thank you for that answer. I would still like 
to hear it is safe, and I think that is what everybody wants, 
that one word.
    Dr. Tierney, is the water safe to drink?
    Dr. Tierney. That is, in a way, a difficult thing to say, 
because everybody has a different definition of ``safe.'' As I 
used the example before, some people think it is safe to jump 
off the bridge on Bridge Day. I don't personally think that is 
safe. So everybody has a different definition.
    Am I confident in the science? I am as confident as I can 
be, given what we have. I believe the water, based on the 
standards we have, is usable for every purpose, and that 
includes drinking, bathing, and cooking.
    Mrs. Capito. So I guess the frustration I am feeling is 
that we can't come to that specific term where everybody could 
have that assurance.
    I will note that you do have a giant thing of water in 
front of you, so I am assuming you are drinking that.
    Dr. Tierney. I am. I am sorry, that is not meant to be a 
statement. But it is from my home tap and the ice cubes from my 
home ice machine. And I have been drinking it. I didn't think 
about that, but yes.
    Mrs. Capito. Let me ask you this, Mr. McIntyre. This is 
something that you and I actually talked about on the day I 
came out there. There was never any communication or any 
reporting to you as the purveyor of potable water in the area 
what is upstream from you.
    So you never knew or had any knowledge--I mean, you knew 
Freedom Industries was up there, but you didn't have any--there 
is no requirement to have communication as to what is up there 
and how you could have had a quicker response to this, maybe?
    Mr. McIntyre. Well, I think the last part, let me address 
that first, because we had enough time and information to know 
that there was the spill and to respond. The information that 
would have been useful to us on what products were up there are 
really the aftermath in dealing with the customer and the 
residents' fear of the water, because it has this odor to it. 
And even its MSDS sheet doesn't refer much to its odorous 
nature in the drinking water system.
    We had enough time to augment our treatment plant, and we 
were treating this material throughout the event but determined 
that after 4 p.m. that some of the material made it through the 
treatment system.
    Mrs. Capito. The testing protocols weren't really in place 
though for at least 24 hours. I remember you working with the 
Guard to try to figure out how to detect for this. Wouldn't it 
have been useful to have all this--you could have pulled it up 
on your computer. We could test right away. We know what we are 
looking for. We know how to prevent, to provide a quicker 
response.
    Mr. McIntyre. Well, again, I challenge the ``quicker 
response'' part. I think having more information on all 
products above a water treatment plant is extremely helpful, 
extremely helpful. But we had enough information. We augmented 
the treatment plant, and we followed the standard protocols. 
``Do not use'' is a protocol that the West Virginia Bureau of 
Public Health has in place for these situations.
    And I have said publicly, if we knew again what we know now 
about the materials and we had the same issue presented to us, 
we would have made the same decision, to continue running the 
treatment plant and put a ``do not use'' order.
    It is really having information after that, that would have 
been really helpful to help people understand the nature of the 
health hazards, the risks associated with this product, or 
apparently the lack of any of those health hazards.
    Mrs. Capito. All right, Mr. Petry, thank you for your all's 
response in an emergency way, and the way you were able to 
disseminate water, both you and the other emergency response 
responders.
    You have had a lot of interaction with FEMA we have here in 
Kanawha County and across the State. Would you say that the 
response with FEMA in terms of helping you deliver was 
satisfactory, or would you have suggestions for them?
    Mr. Petry. Well, we keep telling people to be prepared for 
72 hours at home, just in case a major emergency happens.
    Once an incident occurs, they have to stand up their own 
response and send us the resources that we request through the 
State. And FEMA did, in fact, send us a lot of water that we 
needed.
    It is obvious that it doesn't get here quick enough for us, 
but they have procedures, I am sure, they have to go through. 
And we take it upon ourselves to use our local resources until 
they get here.
    But of course, I would like to see a quicker response.
    Mrs. Capito. OK, thank you.
    I have 20--oh, I have no more seconds, all right, thank 
you.
    Mr. Shuster. We will do a second round.
    And with that, Mr. Rahall is recognized.
    Mr. Rahall. Thank you, Mr. Chairman.
    Gordon, let me begin by asking you a couple questions. You 
stated in your testimony that during the first 24 hours you had 
difficulty communicating with American Water. Is that accurate?
    Mr. Merry. Yes.
    Mr. Rahall. Did it improve after a time period? Did your 
communication improve?
    Mr. Merry. No, sir. I never did get through to them. I 
never got an answer. I left messages and never did get a return 
phone call.
    Mr. Rahall. From where were you getting your information, 
then?
    Mr. Merry. From Jimmy.
    Mr. Rahall. From Homeland Security? OK, I think a lot of 
people were doing that.
    Let me ask, have you documented, Gordon, the final costs to 
the county of Cabell?
    Mr. Merry. When we were in the very beginning, we spent 
around $2,000 for water and hand sanitizer. One of the things 
that we tell, we tell the people in the community to be ready 
for 48-72 hours. Local government is going to have to step up 
and also be ready in that same time period. Without the 
Huntington Area Food Bank, there would not have been water in 
the town of Culloden.
    Mr. Rahall. Mr. McIntyre, let me ask you about the school 
situation here, a full month after the incident started, there 
have been reports of fumes in the schools. Are you helping? 
What are those fumes coming from, first of all?
    Mr. McIntyre. I don't know, sir. I can't answer that 
question. The National Guard has been the agency that has been 
actively involved in sampling the schools. And all I can tell 
you is the sampling results that I have seen before and after 
these events are at nondetect levels. But I can't speak to 
those events. I don't have any direct knowledge.
    Mr. Rahall. Does anyone on the panel have knowledge of the 
fumes in the schools? Jimmy?
    Mr. Gianato. Yes, Congressman, we have put together some 
National Guard and Bureau of Public Health and DEP strike teams 
that have responded to these calls from the schools concerning 
the fumes.
    As Mr. McIntyre said, we have gone in and tested the water 
immediately, going into the schools and then doing tests 
afterward. But all the water before any flushing or anything 
else was done came back at a nondetect level.
    There have been some issues with the schools in the 
cafeterias with their dishwashers, when the water has been 
heated up, that that odor seems to be greater at that point.
    But that is the only thing we have really seen as a 
potential cause.
    Mr. Rahall. Have you been assisting them in their flushing 
efforts?
    Mr. Gianato. The Guard has. The schools have--the schools 
are a little bit more complex than the average home to flush, 
in that a lot of the particularly newer schools have automated 
systems that control the flow of water, just like the faucets 
that you have to put your hands under to make run, so you can't 
just go in and turn the faucet on and let it flush. So they are 
a little bit more complicated.
    But the school systems have brought plumbers in, and they 
have flushed their buildings. And in cases where we have had 
the thresholds above the 10 ppb, they have gone in and 
reflushed. And all the schools that are at less than the 10 ppb 
at this point.
    Mr. Rahall. What about individual homes that want to be 
tested? I know you can't just go around testing everybody's 
home. What is the process they go through?
    Mr. Gianato. Some individuals are doing private testing on 
their own. The Governor's office and the Bureau of Public 
Health are working on a plan.
    As you all know, this is not a very simple issue. It is 
very complex issue, particularly when you start looking at 
going into homes. So we want to make sure, and the Governor 
wants to make sure, whatever we do is very thoughtful and well 
laid out, so that when we do something, it is something that we 
can replicate down the road.
    Mr. Rahall. Thank you.
    Mr. Shuster. Thank you.
    With that, Mr. Webster is recognized for 5 minutes.
    Mr. Webster. Thank you, Mr. Chairman. I just have a couple 
questions.
    Is there any evidence that the chemical residue could 
adhere itself to iron pipes, copper pipes? Anyone know the 
answer to that?
    Dr. Tierney. It is a good question, and we have been 
looking at it. It relates to a chemical's octanol water 
partition coefficient. It is a factor in science called a KOW, 
and it is a complex calculation based on the particular 
substance or chemical that is involved.
    We do know that if a KOW is high, it tends to be more 
sticky to substances. And if a KOW is low, it tends to be less 
likely to be sticky to substances. And fortunately, the MCHM 
has a low partition coefficient, and so we don't anticipate it 
is going to be sticky.
    The EPA is looking at it right now, to make sure that the 
chemical doesn't have any unique characteristics, which would 
cause it to act different than we expect.
    But the fact that when we have had consistently lower 
levels with the testing tends to suggest it is acting like we 
would expect it to act with that partition coefficient. But we 
don't have an official answer from the EPA yet.
    Mr. Webster. Is there a protocol for a residence or a 
commercial building on what to do to flush, before you begin 
using, like to flush out the water that maybe sat there for a 
couple days? Is there any protocol for that, or a checklist of 
some sort?
    Mr. McIntyre. Yes, sir. Working with the different health 
agencies, we created a flushing protocol for customers. But it 
is important to remind everyone that that protocol is based on 
helping homes ensure that they could get below the 1 ppm health 
protective limit.
    We were very clear at the time that we advised people to 
follow the flushing protocol, which our customer service 
center, if people call, if they haven't flushed, I would 
certainly advise them to flush. We hear a number of customers 
haven't. We have staff that can walk them through that process 
on the phone. It is on our Web site. It is a printed three-page 
brochure.
    There are essentially three basic steps to the flushing. 
You flush the hot water for 15 minutes, and then the cold water 
for 5 minutes, then outside taps for 5 minutes. And then you 
move to what we consider cleansing, which is changing any 
filters on your icemaker, dealing with automatic icemakers and 
that.
    So again, that was to get below the protected health limit. 
And that has been very effective when used and followed.
    We also advised people, though, at that time, that the 
flushing was not to eliminate the odor, but to meet the 
protective health limit set by the CDC. And below that number, 
people would still be able to smell this product in their 
water.
    So that is the next phase that we moved into in the 
flushing and the nondetect, and we continue to work to 
eradicate it, so that no people can smell it in their water.
    I hope that answers your question.
    Mr. Webster. Thank you, Mr. Chairman.
    Mr. Shuster. Thank you.
    With that, Senator Manchin?
    Senator Manchin. Thank you, Mr. Chairman.
    First of all, it is just unconscionable that Freedom 
Industries could not have known about the leak, did not report 
the leak, and did not know how much of the leak happened. It is 
unconscionable to me to believe that.
    So I am sure action will be taken for responsible parties 
there. And the answers we got afterwards were absolutely 
unacceptable.
    With that being said, I understand, my outrage and everyone 
else's outrage should be that, of any unconscionable company 
out there doing that type of business.
    With that being said, Dr. Moure-Eraso, you with your 
impressive background, is the water safe? Would you drink the 
water and use the water? Would your children and grandchildren?
    If it is not safe, and you can't say that, what do you want 
to see testing before you would consider it to be safe, if you 
can answer?
    Mr. Moure-Eraso. Well, what I would say is that the value 
that was the trigger, the sampling and the trigger, the 
stopping the use of the water, is what is called a screening 
level, it is what the CDC says. The screening level is not 
necessarily a level that protects public health.
    Senator Manchin. But do you consider it to be safe?
    Mr. Moure-Eraso. Well, I consider that the toxicology that 
exists for this chemical is so little, and the chemical is so 
little studied, that it is very hard to say what is the safe 
level.
    What we should be looking at is what are the levels of 
detection that we have, and try to use the water, as is 
happening here, when they are below the levels of detection.
    But I will look back to the level of detection that this is 
the screening level that was reported.
    Senator Manchin. So nobody is going to say it is safe. That 
is what I am hearing from everybody here.
    And that is the confusion that we have right now.
    With that being said, Mr. McIntyre, if you could tell me, 
there was no backup. You had single-sourced intake. Do you have 
any other of your plants around the country that you provide 
water to that only have single-source intake and no backup 
system that you can't shut down the intake? Is anyone else as 
vulnerable as we are?
    Mr. McIntyre. I can tell you, Senator, that many water 
treatment plants around the country have a single intake for 
their water treatment plant.
    Senator Manchin. With those type of chemicals right next 
door?
    Mr. McIntyre. It depends on where they are located as to 
what they have. But there are major river basins----
    Senator Manchin. So you are saying--how about backup? You 
are saying the rest of your systems have no backup?
    Mr. McIntyre. I am not saying the rest of the systems. I 
don't know that. We can get you that answer.
    Senator Manchin. Would you get us that information, please, 
for the record, because I would like to know.
    I can't imagine why we wouldn't have shut it down. That is 
common sense, that you shut down the system. But then you told 
me about the way it should have been done, because of the 
public safety and this and that. And I just can't imagine that 
we couldn't have shut that down, had the backup system until we 
could determine it.
    I know, at the time, they didn't let you know and all this 
going on, but this makes no sense.
    If I could go right quickly to Mr. Gianato and Dr. Tierney, 
have you evaluated the other areas in West Virginia that people 
might be with their intake systems, where the water treatment 
plants that could be vulnerable right now? And have you taken 
any actions?
    Mr. Gianato. Yes, sir. I can tell you what we have done. We 
have begun the process of mapping all the water intakes across 
the State and looking at the locations----
    Senator Manchin. Have we identified, basically, and 
notified anybody that could be in harm's way?
    Mr. Gianato. Not at this point. We are still trying to----
    Senator Manchin. You are still evaluating.
    Dr. Tierney?
    Dr. Tierney. We have maps that need to be updated, but we 
don't have any authority to do something----
    Senator Manchin. So the legislation right now--I am 
understanding EPA does not have the backing of any codification 
of any law that allows you to go and do anything that is 
nonhazmat. Is that correct?
    Dr. Tierney. You'll have to ask EPA.
    Senator Manchin. Mike? I am sorry, Mr. Dorsey?
    Mr. Dorsey. It is all right, Senator. Well, the DEP.
    But that is correct, at least from the State----
    Senator Manchin. But they are saying, why didn't you do 
this? Why wouldn't you have already been doing this? Why did we 
have a horrific situation like this? You follow me?
    People are starting to blame with everybody, but tell me 
why the DEP would not have been able to do what needed to be 
done?
    Mr. Dorsey. Well, the laws we do have aren't designed to do 
what you are suggesting, Senator. We can look at people's 
stormwater. We can look at any specific outfalls that they 
have. But we do not have the statutory or rule authority to go 
up and say, OK, I want to do a survey upstream here.
    Senator Manchin. Have you looked at the legislation that we 
have provided, the legislation I introduced on the Senate side, 
and I am sure our colleagues are introducing on the House side, 
to see if that would give you the adequate----
    Mr. Dorsey. Yes, sir. That is a big help.
    Mr. Moure-Eraso. Senator, if I can comment?
    Senator Manchin. Doctor?
    Mr. Moure-Eraso. You know, part of our lines of inquiry in 
our investigation are toward prevention. It is good that we are 
looking at the waterworks and where the water is coming from. 
But also, in our lines of inquiry, we are focusing on the 
siting of chemical storage tanks. And we believe that it is a 
very important issue, an issue that I define it as inherently 
safe actions.
    We have to be clear, after a mapping is done of the 
facilities for water, what are the chemical storage that are 
nearby and why do they need to be there if they are hazardous 
substances. And that will be an important step to take.
    Senator Manchin. Thank you, Mr. Chairman.
    Mr. Shuster. We will do another round, if there are more 
questions.
    My first question is a followup with what Representative 
Capito and Senator Manchin asked. The panel sitting here, 
nobody is willing to say that the water is safe, categorically 
say it is safe.
    And I am not going to ask you again, because I think 
everybody is going to dance around the question.
    And I don't know exactly why, but I suspect the main reason 
why is everybody is afraid they are going to get sued if 
something happens weeks from now and something enters the water 
and somebody is going to bring a lawsuit against somebody. So 
that is troubling to me that in our society, when we have the 
people that are supposed to protect us and the experts, nobody 
is willing to say it because they are afraid of a lawsuit.
    So that is a different topic for today, but it is about 
tort reform and making sure that our experts, that the people 
who are protecting society, are able to step up and say, with 
our technology, we ought to be able say the water is safe.
    And so I understand why you are hedging.
    Communications in this case, first, let me go to--you 
talked about, Senator Manchin asked why didn't you shut down. 
Can you explain again why you didn't shut down the system?
    I think you talked about it in your----
    Mr. McIntyre. Certainly, thank you. And it is the number 
one question that we keep getting asked as the water purveyors.
    And people believe that you can just physically turn off 
and turn on a water plant. Unfortunately, that is not the 
reality.
    And it is a system that was severely stressed with the 
polar vortex temperatures that we had. And then the thaw that 
occurred after that, we had numerous pipe breaks. People were 
turning their water on to let it run so that their taps 
wouldn't freeze. We encourage that, so that they don't have a 
costly service line repair or replacement.
    But our system, on January 9, would not support any length 
of shutdown. In fact, if we had shut down the facility, we 
would have been out of water in areas within 15 minutes to 2 
hours.
    That aside, we provide a critical service to the community, 
and I would like people to try to envision what it would be 
like to be in a community where there is no water in the pipes, 
and you have no sanitation. Where do you go to the bathroom? 
Hospitals, if there is a fire in the hospital, how do you 
protect those patients? There are no sprinkler systems in 
buildings. It is a downtown area.
    What if someone started a fire? How do you address that?
    Those were all critical thought processes that we had to go 
through.
    And to extend, you can't just turn it back on. Once you 
waited for the plume to pass, and we were 4 to 5 days before 
the river water was below the CDC standard, so when people talk 
about storage, I don't believe storage would have helped, 
because you have to get the plant back on and you have to get 
it running. Now you have to introduce that water very carefully 
into a system that is full of air.
    And if you have ever seen your tap at home with air in it 
in the bathroom, when you turn it on, that explosive nature, 
there would have been pipe breaks all over the system that 
would have had to have been fixed, and then remedied, and then 
boil water, and move out and out and out.
    Conservatively, we believe that it would have been more 
than a month to turn the water system back on for all 
customers. We believe we made the right decision to protect 
this community.
    Mr. Shuster. A whole other health hazard you bring up, if 
you shut that system down, potentially.
    Would the staff turn the clock on for me? I need the 
discipline of the clock also.
    Communication, I think communication is absolutely critical 
in these events. I want to start first with Mr. Merry and Mr. 
Petry on the communication.
    You had said you weren't able to communicate with the water 
company, but the Federal, the State, how is that communication? 
How did that work for you?
    Mr. Merry. I had very good communications with the Office 
of Emergency Service. I had no problems. I never had one issue.
    Mr. Petry. I, too, had good communications with the State 
Office of Emergency Services. But we have been in these 
situations before, with the chemical facilities in the area, 
and we found out that we were better off if we had somebody at 
the site. And we had my deputy go to the meetings and be a part 
of the committee that was at the water company, along with all 
the other people from the National Guard and other agencies.
    Mr. Shuster. And how did that information from the CDC flow 
down? Does that go through the State to you folks or to you 
directly?
    Mr. Moure-Eraso. Chairman Shuster, if I might?
    Mr. Shuster. Yes.
    Mr. Moure-Eraso. The issue of communications, it is an 
important one, and it talks about your original question that 
says there is the appearance that people are hedging when they 
say what is the safe level, if this is a safe level.
    But if you are going to give a scientific answer to this, 
you have to have scientific data in which you can base your 
statement of safety.
    And in this particular chemical, there are only two 
toxicological studies that were ever made. One is an acute 
single dose mortality study and the other was a daily oral 
study, four groups of animals in each. I mean, this is the bare 
minimum that you do.
    And those types of studies are not designed to give us the 
answer of what is safe. That is one of the things that we are 
also contemplating in our investigation of this case, to look, 
what Senator Manchin is doing, to look at the Toxic Substance 
Control Act, and see why the people that basically put this 
chemical in commerce don't provide the necessary toxicological 
data to tell us what is the level of toxicity that we should 
worry about. And that remains to be done.
    Mr. Shuster. And, Mr. McIntyre, Mr. Merry said he was 
unable to communicate with you folks. Can you talk a little bit 
about what was going on over there? Was there a reason that you 
didn't communicate with them? Can you talk a little bit about 
the communication?
    Mr. McIntyre. To be honest, I didn't know he was trying to 
communicate with us. I did not receive any calls. I am not sure 
who he was calling, but we had a whole interagency team at the 
water treatment plant, running day and night. So I can't speak 
to who he called, but I find it very unfortunate, because I 
believe we have been extremely communicative with all the 
partners through this process.
    A lot of communications have been happening. I don't know 
where this one fell apart.
    Mr. Shuster. In a situation like this, unfortunately, that 
happens now and then.
    But again, communication, that is something we need to 
learn from this, from the Federal level all the way down. And I 
think the folks, where the rubber meets the road, you guys, the 
county emergency responders, you need to have that 
communication all the way up the chain.
    A final question, Mr. Gianato, you mentioned about learning 
from other sites that are similar to West Virginia. Have you 
identified other places that are similar? As the committee goes 
forward, as we look at potential legislation, that we can look 
and say this is a very similar situation that occurred in this 
State or that State?
    Mr. Gianato. What I meant to say in that is people need to 
learn from what we are doing here. And we need to look at being 
able to replicate and learn from the mistakes that we made, the 
things that we did right, and push that model all across the 
country.
    We are currently talking to FEMA and DHS about developing 
some things. As you know, there are some national security 
implications to this that need to be discussed in another 
forum.
    Mr. Shuster. Absolutely.
    With that, I am going to go for second round of questions.
    Mr. Rahall?
    Mr. Rahall. Yes. Mr. Dorsey, let me ask you about the 
restoration of the site.
    Mr. Dorsey. Yes, sir.
    Mr. Rahall. You mentioned, I think somewhere in the press, 
that it has been stalled because of the various investigations, 
including a criminal investigation going on.
    Has that restoration been restarted, or is it still on 
hold?
    Mr. Dorsey. Congressman Rahall, we have never really 
stopped. We have been actively managing the site. But the area 
where the leak actually occurred is in the tank farm on top of 
the bench there. And the area where the leak occurred has been 
sort of off-limits. We put sumps in there. We put some 
interceptor trenches, et cetera, to collect the raw material 
that was coming out. And that has stopped.
    But it would surprise me if we didn't, when we move these 
tanks, find additional pools of the material below that. Now 
that is not to say it is going to get off-site.
    Mr. McIntyre stated the water has been clean since January 
13. I believe the intake side of that has been clean since 
January 11. So we have been very successful keeping the stuff 
on the site.
    But the Chemical Safety Board is up there investigating. 
The Federal prosecutor is investigating. There are several up 
there. And until they give the clearance--I am hoping that this 
week--we haven't been able to move those tanks and see what we 
have right below them.
    Mr. Moure-Eraso. Congressman Rahall?
    Mr. Rahall. Yes?
    Mr. Moure-Eraso. In the preliminary work that we have done, 
we have been able to examine the bottom of the tank. And I will 
ask our lead investigator, Mr. Banks, if he could show to you 
the photographs that we have of the actual failure of the 
bottom of the tank. We have it over here.
    Mr. Rahall. You mentioned Mr. Banks. I met with him on his 
first day he was in State. He is no stranger to our State, 
either, having been here with your board in previous accidents.
    Mr. Banks. Well, as you can see here, there are two holes 
that we photographed in the tank. One is about 19 cm, and one 
is about 10 cm. And this is the object of our attempt to get 
this portion of the tank extracted and removed for forensic 
examination.
    We are working with our partners in the U.S. Attorney's 
Office and the State to make sure that everybody understands 
that there is a protocol we have developed. We are working with 
a preeminent tank expert to make sure that these portions of 
the tank are removed in the prescribed manner.
    And I think we are close to doing that. The plaintiffs' 
attorneys were out at the site this past Friday, and we are 
hoping to strike an arrangement where we can remove this. Once 
we remove this, the remediation can take place.
    This is the main area, but we want to make sure that we 
thoroughly document those other tanks that were also in similar 
service to determine if there was a failure mechanism in those 
tanks that could tell us why the tanks failed.
    Mr. Rahall. Is that steel?
    Mr. Banks. We think it is carbon steel, but we would want 
to determine that before we make any pronouncements on that.
    Mr. Moure-Eraso. Yes, I would like to add that one line of 
investigation is to look at corrosion mechanisms. We are going 
to take samples of that tank and find out how the corrosion 
happened, and to try to make recommendations of what should be 
recommended to build the tanks. There are materials, there are 
alloys, that are especially protective towards corrosion that 
we would like to recommend at the end.
    Mr. Rahall. How long do you expect this process to take?
    Mr. Banks. The actual removing of the sample, which is 
called a coupon, could be a day. But it is a matter of getting 
all of the other tanks mapped, and I think that could take 
maybe 2 to 3 days. We have an expert that has recommended a 
company that can come in to do the work.
    Mr. Rahall. I know we have discussed this before, and it 
has been mentioned in today's testimony. Your recommendations 
from the last time you were in West Virginia 3 years ago, 
roughly, were not acted upon. I know those recommendations have 
been incorporated in various pieces of legislation my 
colleagues have introduce, recommendations that I fully support 
and hope to see them acted upon this time.
    Would you anticipate that that will be a basis upon which 
your recommendations will be based after this report is 
complete?
    I guess my question is, will you re-ask that those 
recommendations be made again?
    Mr. Moure-Eraso. Well, I think we have a thorough 
opportunity to present the necessity of having that type of 
chemical spill protection, chemical release protection, that is 
the basis of past recommendations. And this, of course, is a 
case that definitely this applies to, to have a system to 
address and prevent chemical spills.
    Mr. Rahall. OK, thank you.
    Thank you, Mr. Chairman.
    Mr. Shuster. Mrs. Capito?
    Mrs. Capito. Thank you.
    Dr. Tierney, I would like to talk about the public health 
effects of what is going on here.
    First of all, just very briefly, if you could give me a 
snapshot of what you have seen. Is it rashes, or is it growing, 
or how many is it, approximately?
    The other question I have is on the ruling, the letter from 
the CDC about pregnant women. I mean, everybody that I talked 
to said, of course, that startled, really shook us. Young 
families have babies. They have formula they are making with 
the water. Why just pregnant women? What kind of judgment was 
made on that? And then maybe just briefly a little bit about 
what long-term lookout you would predict on this, on the public 
health aspect.
    Dr. Tierney. I am sorry, what was----
    Mrs. Capito. The first one was, a real snapshot as to what 
you have seen.
    Dr. Tierney. Oh, what we have seen.
    Mrs. Capito. Yes.
    Dr. Tierney. Very fortunately, in our survey of the 
hospitals' emergency rooms, it is been less than a half percent 
of the affected population presented, which thank God.
    Mrs. Capito. Yes.
    Dr. Tierney. And we have seen mostly nausea and vomiting, 
which was self-limited.
    Mrs. Capito. Is that from the odor or from drinking?
    Dr. Tierney. All of the above.
    Mrs. Capito. OK.
    Dr. Tierney. And some rashes, also which resolved.
    So like I said, thank God, we don't want anyone harmed from 
this.
    Mrs. Capito. And then the letter from the CDC?
    Dr. Tierney. Now, the letter from the CDC, I can tell you 
we were equally shocked, surprised, and worried when we got it. 
We kept pressing them for more clarification. And the letter is 
what it is.
    Mrs. Capito. Right.
    Dr. Tierney. I will tell you, I personally, on Saturday, 
which would have been the 11th of January, when we were 
discussing the screening level that they gave me, being a 
doctor, I specifically asked what about babies, what about 
breastfeeding, what about immunocompromised, what about 
pregnant women, what about? And they told me that they felt 
that the screening level, because of the safety factors that 
they factored into it, were protective of all those 
populations.
    So we were shocked, also, when they presented us with this.
    Mrs. Capito. And the last thing is, have you gotten to any 
kind of strategy for some sort of long-term----
    Dr. Tierney. We are in the process of that. And like I 
said, it is not something that we want to get wrong. So we want 
to make sure that it is a reasoned approach.
    We are starting with our surveillance, looking back at it. 
And then we are going to do a CASPER study, which is a 
household surveillance study through the CDC.
    We are going to take that information, and then we are 
going to figure out what is going to give us the best 
information.
    Mrs. Capito. All right.
    Mr. Dorsey, there was a report early on that the tanks had 
never been inspected. And then, as Senator Manchin said, 
everybody was getting blamed for this. What I am hearing you 
say is that was not part of your legal authority. Am I correct 
in that?
    Mr. Dorsey. That is correct, Congresswoman Capito. Nothing 
that we would have done in our legal authority that has 
inspectors for the laws that are applicable up here would have 
detected that leak.
    Mrs. Capito. Had you had inspectors on the site at all 
previously?
    Mr. Dorsey. Yes. They are been inspectors onsite numerous 
times over the years. Our secretary reported initially, in the 
heat of the moment, when this thing first happened, that they 
hadn't. But that was not the case.
    Now, I can't tell you how many times they have been on 
there, but it was probably over a dozen for air complaints and 
other inspections up there.
    Mrs. Capito. OK. But your real job there was not to inspect 
the safety of the tank. It was to respond to complaints, odor 
complaints and such. Is that correct?
    Mr. Dorsey. That is correct. Yes, ma'am.
    Mrs. Capito. OK. There is another myth around--not myth, 
but concern with the flushing issue, in that everybody seems to 
be smelling it the most with the hot water.
    And I can attest to that. In the shower, I can smell it. 
Although I didn't this morning, I was happy to report. But 
brushing my teeth with the cold, I didn't smell it.
    So is there some characteristic here with hot? Is it 
because--I mean, we are talking about sediments in our hot 
water tanks? Help us out with this. We are talking about it a 
lot.
    Mr. McIntyre. Yes, and it is well known in the water 
industry that chemicals that have an odor to them, like geosmin 
or MIB, which are associated with the much cleaner water we 
have in the Great Lakes, decades ago, water treatment plants 
started seeing odors in their water, and that is why many of 
them have switched to the type of process that we have with 
carbon caps, activated carbon caps, on their treatment system. 
It is to deal with these odors.
    And they are more prominent in hot water. I think it is 
mostly in the shower, and it is because you are making it into 
more of a mist, and it has temperature. It is just like 
anything you cook. It smells more when it is hot than when it 
is cold. It is natural.
    Mrs. Capito. So that is not an unexpected result, with the 
hot water you would smell it more prominently?
    Mr. McIntyre. I would expect it fully.
    Mrs. Capito. OK. All right.
    Yes, Dr. Moure-Eraso, you mentioned in your testimony that 
a private inspector had been to the site to inspect the tanks 
in October of 2013. Now I don't know what reason they had a 
contractor coming in. Since they are not here, we cannot ask 
them that question. But I am going to surmise, since it was 
sold at the end of the year, that that might have been one of 
the provisos of change of ownership. I don't know that to be a 
fact, but that is kind of what hit me.
    You mentioned in there, in your report, you say that the 
tank and then ``had been maintained to some structural 
adequacy, but not necessarily full compliance of API 653 or EPA 
standards.''
    Can you give us some detail on that? What does that mean? 
It was corroding?
    Mr. Moure-Eraso. Let me answer first, and then I pass you 
to Mr. Banks.
    First of all, they did inspect in October 2013 the chemical 
tanks and terminals in Charleston and Nitro. But they didn't 
address the tank that leaked, 396.
    Mrs. Capito. Oh, the specific tank was not----
    Mr. Moure-Eraso. It wasn't addressed because it didn't 
contain any hazardous substances as legally defined.
    Mrs. Capito. Oh, OK.
    Mr. Moure-Eraso. But, you know, I wonder if you would like 
to ask details of API 653.
    Mr. Banks. Well, there is a pretty rigorous standard that 
653 would hold the tanks to, if they were used in a certain 
service.
    Mrs. Capito. If it was toxic, is that what you----
    Mr. Banks. Yes, if it was toxic. And because this material 
is not considered toxic, it received a waiver for that type of 
scrutiny.
    Mrs. Capito. I see.
    Mr. Banks. And so, moving forward, we are going to look at 
using 653 as the standard for evaluating this tank to make sure 
that, if there were some failure, we will be able to determine 
that using that process.
    Mrs. Capito. Thank you. I just finally would say that this 
toxicity standard, we all realize that something that is 
nontoxic can bring you right to your knees. And I think that is 
probably what TSCA reform is all about, and I look forward to 
working on that.
    Thank you, Mr. Chairman.
    Mr. Shuster. I recognize Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman.
    I think this would be to Mr. Dorsey. You know, the 
credibility of Freedom, there is no credibility. They said 
first we thought it was a small leak. Then it was, like, I have 
heard 3 different things, 3,000, 5,000, and 7,500.
    Do we know much how much actually leaked in the river?
    Mr. Dorsey. No, sir. I stopped reporting how much they were 
telling me was leaked after I got three different numbers.
    Senator Manchin. Why should we be relying on them for any 
information?
    Mr. Dorsey. Well, I am relying on the Chemical Safety 
Board. When the Chemical Safety Board tells me how much they 
think was leaked, that is what I am going to believe.
    Senator Manchin. OK. Next of all, was there no plan? I 
mean, when we knew there was a leak, why wouldn't we have 
emptied those tanks immediately, before more leaked out?
    Mr. Dorsey. Well, we did. Even by the time I got there, 
they had a tanker hooked to that tank and were pumping the 
material out. It just takes X amount of time, depending on how 
much was in there, to get it emptied, to where no more will 
come out.
    Senator Manchin. You know, we are briefed, all of us are 
briefed on a regular basis about cybersecurity and how 
vulnerable our food supply, our water supply, our grid system, 
and what it can do to our lives in America.
    Seeing this as a wakeup call, do you think that this should 
be considered the same as the national disaster?
    The comparison would be this, Doctor, or whoever wants to 
chime in on this, the same as Hurricane Sandy. There is no 
State that can take care of this by themselves, and they are 
expecting the State, but we shouldn't be looking at how much it 
costs and whether we can do the testing and whether we should--
it just has to be done.
    So, Doctor, we are going to need people like yourself that 
will speak up and say this is a wakeup call to prevent a 
national disaster, and can we expect some help from the Federal 
Government?
    Mr. Moure-Eraso. Yes, I think one way to deal with this is 
the bill you are proposing in the Senate. But what we have to 
see here is what is the cost of not acting.
    We are able to measure what it has cost the State of West 
Virginia to have this incident in terms of money lost and 
income lost and anguish to the people. To really address the 
storage of chemicals in tanks will be a small cost, compared 
with the other costs.
    Senator Manchin. Do you agree that we should have long-term 
monitoring in the valley here for the people in the affected 
areas, so that we know the effect this has on humans or no 
effect at all on humans?
    Mr. Moure-Eraso. Exactly. I think the Toxic Substance 
Control Act should address the toxicology----
    Senator Manchin. We should expect the Federal Government to 
work with us on that?
    Mr. Moure-Eraso. And that is the Federal Government, yes.
    Senator Manchin. OK, I do, too. I agree with you 
wholeheartedly on that.
    Dr. Tierney. I want to chime in, yes.
    Senator Manchin. And I know, Dr. Tierney, I know you are 
new to the job. I know you are on the frontline of defense 
right now, but with that being said, I have to say a few things 
here.
    Your analogy of being safe, and I know no one--I am 
understanding that not one of you up here are willing to say, 
unequivocally, it is safe. And I would assume that you would 
have to have 0 ppb, ppt, no nothing, for you to use the word 
``safe.'' I think that is where everyone is probably.
    I am using it normally. A lot of us are using it normally. 
I don't think my water needs to be tested in my home. But if I 
had a young family, I think it would be a different scenario. 
So we are all in agreement.
    I would just say this about your analogy on the bridge. I 
have been to Bridge Day many times. I did not think it was 
safe. I think there were people who wanted to throw me off at 
times, but I didn't think that I would do it voluntarily.
    With that being said, you understand they all sign a 
waiver. They sign a waiver of the danger, to hold nobody 
responsible. We shouldn't have to sign a waiver to drink our 
water.
    Dr. Tierney. And I agree. I just, as a doctor, cannot 
countenance jumping off a bridge.
    Senator Manchin. Let me ask any of you, as we are starting 
to wrap this up, does the State right now, I would assume that 
they are looking at all types of testing, whoever would want a 
test, I am sure of that and I am very appreciative of that. And 
long term, you are all receptive to have long-term monitoring. 
And Dr. Gupta basically has been on the frontline and I think 
we have a lot of confidence.
    And I think everybody should be working together. If you 
want to comment on that, and if anybody wants to comment on 
something that you think would give the people in this valley 
some confidence that we are moving in the right direction, that 
anything and everything that possibly can be done is being 
done.
    So, Doctor?
    Dr. Tierney. I agree. We are going to need help from our 
Federal partners to establish these things. They are not done 
easily or inexpensively.
    Senator Manchin. You are accepting the testing and you are 
accepting monitoring also?
    Dr. Tierney. Absolutely. I think all of this needs to be 
done to restore confidence.
    Senator Manchin. Jeff, do you have anything on your 
situation, do you have any plans on putting in another intake? 
Do you have any plans on, basically, a backup system?
    Mr. McIntyre. Senator, we have to look at all options 
following this event. We still have been dealing with this as 
an event working through it. There will be a time that we go 
through that.
    I think it is well known now that when that plant was 
constructed, some 40 years ago, there was an application for a 
second intake that was not approved.
    Senator Manchin. Jeff, I would say this, that everyone is 
upset about their water bill. You know that, right?
    Mr. McIntyre. I know they are.
    Senator Manchin. Can you at least give us a break?
    Mr. McIntyre. Senator, it is a great question. But our 
customers continue to use the water, whether they think it is 
appropriate----
    Senator Manchin. Well, most of it has been used for 
flushing and everything else. The water bills are all spiked 
higher than they have ever been. They haven't been able to use 
it.
    Mr. McIntyre. Well, a number of people have let their water 
run it to protect it from freezing. We know that. We see that.
    We have given credits to small business and residential 
customers based on what was needed to be done in their homes, 
and it exceeds that amount, what they needed to do to have the 
water below the 1 ppm.
    And I can tell you, Senator, like you, you were at the 
plant, you drank the same finished water I drank that day. I 
have been drinking it since the order was lifted. My wife does. 
As a water company----
    Senator Manchin. How are you sleeping?
    Mr. McIntyre. I am sleeping great.
    We have to follow what is given to us as health-based 
guidance. And that treatment plant, everything we do, we 
monitor for 100 contaminants at various times throughout the 
year. We monitor for mercury. We monitor for arsenic. We 
monitor for pesticides. And if anyone thinks that every water 
treatment system has absolutely zero of all of these chemicals 
or compounds, they are mistaken.
    There are limits set. And as a water purveyor, we work 
within those limits. So that is the hesitation we have, because 
we only do what we are instructed to do in making water 
available to our customers.
    And again, through this whole event, through all of the 
sampling, there is less than 10 results that I am aware of that 
were above 1 ppm. But it is a fear-based issue, because people 
can smell it. And we recognize it. And that is what we are 
working to, eliminate that fear.
    Senator Manchin. Thank you.
    Mr. Shuster. I am going to let anyone know, it is not 
standard operating procedure in a hearing like this, but I 
think, because of the situation, in talking to Mr. Rahall and 
Mrs. Capito, to allow the public, if they want to make a 
comment, what we will do is we will--the public can submit 
anything they want for the record. We will take it. It is open 
for 30 days, as requested by Mr. Rahall.
    But I am going to ask a final couple questions, and we will 
take 10 statements from the audience. We will let you talk for 
1 minute. But if you care, if someone in the public wants to, 
if you line up over there, we will have a microphone.
    But I guess we will take 10 folks. If you want to say 
something, we will give you 1 minute to say it. Then, of 
course, you can submit all you want for the record.
    So again, I have a couple questions here.
    First question is, when the facility operator discloses 
that there are chemicals present at a facility, under the 
Emergency Planning and Community Right to Know Act, that is the 
law, how is the information utilized, when you have that 
information, to prepare for and help prevent possible 
incidents?
    And I would like you folks from the county, if you could 
respond to that? How do you utilize that information?
    Mr. Petry. Well, when we receive a call of some type of a 
leak or some type of odor complaint that we get quite often, we 
respond with our fire departments. My fire coordinator 
responds.
    Once we determine where the smell or origination of the 
leak may have happened, we do compile a list of all the Tier II 
reports that we have on file. Our KPPC, which is our LEPC in 
the county, our local planning committee, they as well as the 
State has a list of the chemicals that are stored at the 
facility.
    And as far as I know, the local responding fire department 
is supposed to have that information within their office also.
    So we try to get all the information that we have and take 
it with us to that area, so we will know as much about it as we 
can, so that we can, A, not put our people in harm's way, and 
then, B, let the people in the area know if there is something 
they need to worry about.
    Mr. Shuster. Mr. Merry, similar?
    Mr. Merry. I agree 100 percent. It is under SARA Title III. 
They must report to the local volunteer fire departments or 
fire departments, and also submit the Tier II reporting to the 
local LEPC.
    Mr. Shuster. And your first responders, do they get out to 
these sites? The priority sites that are out there, do they get 
out and visit them? Are they familiar with them?
    Mr. Merry. We don't have as many sites as Kanawha County. 
Fortunately, we don't.
    Mr. Petry. Well, our volunteer departments, as well as our 
professional fire departments, do preplanning. So they do try 
to get out in the areas, trying to see what they have to 
protect and protect us from. So I would say, yes, they do 
probably get out.
    Do they know right now how many and what all the different 
types of chemicals there are? No. But they do try to get out 
and preplan and talk with the presidents of the corporations to 
try to find out what their problems are.
    Mr. Shuster. And, Mr. Gianato, your department would be the 
department involved in that?
    Mr. Gianato. Our department oversees the State Emergency 
Response Commission. We receive the Tier II reports from all 
over the State.
    Currently, I think we have about 9,000 facilities that file 
those reports to the State.
    The problem is that most of those facilities file paper 
reports, and they come in large volumes of paper, and there is 
no way--we have to literally manually enter each one of those 
documents.
    We are currently looking at mandating electronic filing 
into a database, and we have been looking at that for some 
time. It is just like everything else. There is a cost 
associated with doing that, and then you have to make it 
available to people who don't have access to an electronic 
means to file. So we are looking to work through that.
    Mr. Shuster. OK, thank you very much.
    I think that is all the questions. Anyone else have any?
    OK, so I see we have seven people in line. Again, Matt, 
hold the mic, because, as we found in Congress, if we surrender 
the mic to a Member of the House, or especially a Member of the 
Senate, we may never get it back.
    [Laughter.]
    Mr. Shuster. So with that, again, this is not something we 
typically do, but again, with the urging of my colleagues up 
here, and I think it is such an important subject matter, that 
I will give you a minute--and again, you can submit all the 
documentation you want to.
    But again, we will give you a minute to make a public 
statement.
    So with that, introduce yourself, please, and where you are 
from, or who you are with.
    Ms. Nye. Thank you, Chairman Shuster. My name is Maya Nye. 
I am a spokesperson for People Concerned About Chemical Safety, 
but I grew up a mile away from the Institute chemical facility. 
My father worked for Union Carbide for his entire career. My 
mom worked there, and my stepfather worked there. I worked 
there while I was in college.
    Chemical incidents are, actually, they are anything but new 
to me, and much like water contamination is anything but new to 
the people of the coalfields of West Virginia and to the 
fracking fields of West Virginia.
    I have been through many chemical incidents in my life. And 
when this incident first happened, my dear friend called me 
panicked because she hadn't heard about the leak until after it 
had already entered the drinking water supply, and she had just 
bathed her twin daughters in it. And she was worried about the 
immediate and long-term health effects of the chemical that she 
had just unknowingly exposed her children to.
    Mr. Shuster. Since we only have seven people up there, I am 
going to give everybody 2 minutes, but we are going to cut it 
off at seven.
    So you have another minute. Go ahead.
    Ms. Nye. We need peer-reviewed scientific evidence to 
measure the accuracy of flushing protocols. We need peer-
reviewed scientific evidence to tell us what the long-term 
health effects will be. We need medical monitoring. We have 
needed it for the last 70 years in this valley.
    We need to continue water distribution until someone up 
here is willing to say that the water is safe. We are so glad 
to have the Chemical Safety Board back here.
    And while the water intake system should be high on the 
priority list for protective measures that we need to put in 
place, I believe that we are short-sighting ourselves if we 
stop there. I mean, I think we really need to insist that 
companies like Freedom invest in updating their aging 
infrastructure in order to protect not only our water intakes, 
but to protect the workers, protect community members, and to 
protect a thriving local economy.
    We need to mandate the implementation of inherently safer 
technologies as well and reduce the stockpiles in order to 
minimize the terrorist threat that is posed by these 
facilities.
    And we need to take a good hard look at chemical safety 
from cradle to grave, so from community's like mine that 
manufacture, through transportation, to the application, and to 
the waste disposal. We have to look at that chain. And if we 
don't, we are really short-sighting ourselves.
    Mr. Shuster. Thank you very much.
    Ms. Nye. Thank you.
    Mr. Shuster. You can submit it all for the record.
    The next person up.
    Again, we cut off the line with the last gentleman with the 
flannel shirt and the beard. He is our last one. But we are 
going to give everyone 2 minutes instead, so set the clock at 
2.
    Can you introduce yourself?
    Ms. Thompson. Yes, my name is Janet J.T. Thompson, and I 
appreciate everything I have heard about what you plan to do in 
the future. And I can appreciate what you went through with 
Freedom.
    But my question is this, and we do need an answer now, we 
were told that the water, that if you smelled the water, the 
water was not safe. I had a little 10-year-old girl tell me the 
other day that the water stinks. She can smell the smell. They 
are probably about 1,000 feet from the plant. They still smell 
it, and the water stinks when it comes out.
    So I think what we really want to know in order to restore 
the confidence is when will we stop smelling the water and when 
will we hear that the chemical leak is completely stopped. And 
that will assure us that it is not getting into the water.
    Mr. Shuster. Thank you. Would someone care to answer? I 
think someone has talked a little bit about that. I can't 
remember who. There is some smell but----
    Mr. Dorsey. Mr. Chairman, if I may say one thing to start 
with. As everybody knows, the odor threshold on this is very, 
very low.
    Some of you may remember a week ago last Friday, we cut a 
pipe up there that was just laying on the bottom that no one 
knew about, and we had odor complaints a mile away from the 
site. And we took a sample of that material and it came back at 
98 ppm, less than 100 ppm, people were smelling it a mile away.
    So it is very easy to smell, as everybody says.
    And I need to point out that when we do get to work 
removing the tanks, there will likely be odors again up there. 
That doesn't mean it will be in the water. That means that we 
will have exposed some of it to the air, and it is going to 
smell.
    But I understand what the lady is talking about. You can 
smell it at extremely low levels.
    Mr. Shuster. But confirm that the leak has stopped. You are 
confident that the leak has----
    Mr. Dorsey. Yes.
    Mr. Shuster. OK.
    Mr. McIntyre?
    Mr. McIntyre. Let me talk to the drinking water and the 
odor in the drinking water again. We have tried to be as 
consistent as we can, but it is fact-based information. You can 
smell MCHM in the water below the protective health limit. Just 
because you can smell something doesn't mean it is not safe.
    In fact, since the 17th, we have been out flushing and 
testing the system, and there has been no result that is close 
to the protective health limit since the 17th of January.
    Mr. Shuster. Thank you.
    Next person?
    Thank you for the question.
    Please introduce yourself.
    Ms. Davis. Yes, my name is Sue Davis. I have lived in this 
valley for 71 years. And the chemicals have interrupted my life 
and my well-being again, as they have over the last 71 years.
    Mr. McIntyre, the money that you offer us won't pay for the 
gas that I have used to get to the doctor.
    Also, why do you suppose all of our stores are always 
filled with every kind of drinking water possible? Jugs, small 
bottles.
    We simply don't have that much confidence in your water 
system to begin with. So it is going to be a long time before 
you restore faith in it again, and you will never have mine.
    The lady from the poison control, I think she's poison 
control.
    Mr. Shuster. We don't have anyone here from the CDC. Dr. 
Tierney, the health officer.
    Ms. Davis. The doctor, yes.
    I appreciate your comments, but you are not considering the 
people who haven't gone to the hospitals and the doctors. I 
went to one of your medical facilities. My cousin insisted that 
I go because I have been sick. And when I got there, I said, 
``My cousin made me come. I don't know what you can do, but we 
thought maybe you might want some documentation or some 
numbers.'' She said, ``We are not interested in any numbers. We 
are not keeping any.''
    Congresswoman Capito, I didn't care for the slip of tongue 
when you refer to the ``myth'' anymore than I referred to what 
you said on the TV about the shelves being stocked, and we can 
go out and buy the water. I thought that was poor taste, but I 
am glad that you apologized for that as well.
    That bothers me. It still bothers me.
    Mr. Shuster. Thank you very much. Your time has run out 
here. We are going to get to the other folks.
    Ms. Davis. I would like to say one thing, if I might.
    Mr. Shuster. I will give you 10 seconds. Go ahead.
    Ms. Davis. OK, we are talking about the water in the pipes. 
When I came outside the other day, the water from the flooding 
in the yard was so bad with the licorice smell. This has been 
the last rain we had 2 or 3 days ago. And it has burned me so 
tremendously and caused my breathing to be so bad. Why should 
the water be on our land when it rains?
    And I did keep some of the water, if anybody is interested. 
I know it couldn't be scientifically accepted, but I would like 
to know.
    Mr. Shuster. Thank you very much for your comments.
    Next, please?
    Ms. Rosser. Hello, I am Angie Rosser, executive director of 
the West Virginia Rivers Coalition.
    And shortly after the spill, we worked with a team of 
independent science and policy experts to issue a report that 
looked out at the comprehensive failings on every level of 
Government, the information gaps, and recommended policy 
recommendations. I will make sure that is submitted as part of 
the written record.
    But I would urge this committee to look at two things. One 
was a statement that our DEP secretary has made in the press. 
And I noticed he is not here as a member of the panel to answer 
to this. But he said that this incident could have been 
prevented or minimized with the regulations we currently have 
in place; it just didn't click with anyone that this was a 
concern.
    So I would like for the committee to ask him more on what 
he means about this, could have been prevented with the current 
regulations, and why it didn't click as a concern, before we 
start rushing to legislate.
    The other thing we are concerned about is the Charleston 
intake, the Bureau of Public Health let us know that through 
their source water assessment report, we have 51 potential 
significant contaminant sources to this intake. Freedom 
Industries is one of them.
    We are wondering what about the other 50? This is not just 
about one leaky tank. It is not just about aboveground storage 
tanks that are a threat to our water supplies. So we need to 
take comprehensive look.
    In Huntington, there are 424 potential significant 
contaminant sources. So please, let's not have a narrow view 
and just look at tanks, but look at all the threats to our 
water sources that we face in West Virginia and around the 
Nation.
    Mr. Shuster. Thank you, and I feel confident, in talking 
with Senator Manchin and both Representatives Rahall and 
Capito, they are asking those types of questions right now that 
you have.
    Next, please introduce yourself?
    Mr. Caruthers. Yes, sir. I appreciate everybody's interest 
here today. I have some observations, not blame. One of my 
observations is--my name is Jim Caruthers. I am the mayor of 
the town of Poca.
    And the flushing procedure, we are flushing our homes with 
contaminated water. All we are doing is bringing dirty water in 
and dumping it out. It is being flushed through the spigot. It 
is not being flushed through the mains. It is not being flushed 
through the hydrants. It is being flushed through the spigots, 
and an unusual number of breaks.
    And I think that people have a misconception. They think 
they are doing themselves a lot of good when they run the water 
through, but if we are still pulling dirty water in through the 
main system, the main system needs to be purged, then we purge 
the houses.
    Secondly, the beginning of this project was a cluster. I 
think everybody knows that. The notification was great by the 
media. The media did a great job.
    For those of us or those of you who sit with a beep-beep in 
your hand that are listening or watching a computer, a 
television, or a cell phone at all times, which I see through 
this group almost everybody does, but there are a few of us who 
go out and do things. We don't know about it.
    These two counties just put in a fabulous system last year, 
an emergency siren system with a voice override. It could have 
been activated instantly, and everybody could have been told 
``do not use the water''--the guy walking down the street, the 
kids playing in the yards. There are 21 of these spread 
throughout our counties.
    It wouldn't have gotten everybody, but between this 
notification and the phone system and the media, I think a lot 
of people could have been tipped off early and not have 
potentially taken in some of these hazardous materials.
    I think, all in all, we are very lucky that we haven't had 
major medical problems.
    I am a resident of Putnam County, and we used to use the 
Nitro water. You talk about smell. Whatever fish died upriver, 
we smelled it that night. It has come a long way. It is far 
better than it was, but it has a ways to go.
    But I do appreciate your turnout. Thank you.
    Mr. Shuster. Thank you very much, Mr. Mayor.
    And the next gentlemen, please introduce yourself.
    Mr. Gilpen. James Gilpen, I live in Cross Lanes, West 
Virginia.
    First and most, Freedom Industries is not who I pay my 
water bill to. I pay my water bill to West Virginia American 
Water. They should have protected us in all results of 
anything.
    And first and most, I have worked in chemical plants. I 
have dealt with chemicals. There is a PPE standard that should 
have been done. Does anybody have a PPE standard that we should 
have had when we flushed our water?
    I have a spot on my leg that I got the first day I stepped 
in the water. I won't shower or bathe in it right now.
    My question is, is what are we doing--not with the past and 
what we have done. I understand what happened in the past. What 
are we doing in the future? Why cannot one of you all stand up 
and say our water is drinkable? Why can't you all say it is OK 
to bathe in our water and it won't have long-term----
    Mr. Shuster. I think that question has been asked and 
answered a couple times.
    Mr. Gilpen. But no one wants to answer that question.
    Mr. Shuster. Well, the experts have said that there are 
some concerns about there hasn't been enough testing. As I 
pointed out----
    Mr. Gilpen. Their biggest fear is a lawsuit. That is the 
number one thing.
    Mr. Shuster. Well, my concern is people are afraid there 
are going to be lawsuits.
    Mr. Gilpen. In West Virginia, I think if our government 
can't supply us with good drinking water, then something needs 
to be done.
    Mr. Shuster. That is what we are holding this hearing here 
for today, to take it back to Washington. You have three very 
able and capable Representatives.
    Mr. Gilpen. And to bring it up, he asked if it was a major 
disaster? Yes, it is a major disaster. If our babies cannot 
drink water, and our elderly cannot drink water, and my mother, 
she's on a respirator, and to purify the water in our homes, 
then what is there, Senator Manchin?
    Mr. Shuster. That is what we are trying to get to the 
bottom of. Thank you for your comments.
    The next gentlemen, would you please step to the mic?
    Mr. Reynolds. Yes, my name is Chuck Reynolds. I live in 
Fraziers Bottom, West Virginia. That is in Putnam County, 35 
miles to the west.
    And we were told to flush our water system. As instructed, 
I flushed the water system, and it still had the smell.
    I flushed it twice, and it was still there.
    And now my wife and I, of course, like everybody else, at 
water distribution centers, my wife has to go to the town of 
Hurricane, and both her parents are real elderly, and we have 
to get water off of them, because the town of Hurricane is 
smart enough to have their own water system. They are not 
hooked to West Virginia Water.
    And I am going to give you the standpoint from this: I am a 
maintenance person, OK? I worked for the State of West Virginia 
for 23 years, OK? And you get a chemical in a hot water tank, 
it is very hard to get it out.
    You are testing the cold water. You need to test the hot 
water. Not only that, the reason people were letting their 
water run is because they don't want their pipes to freeze. 
They are not using the water.
    I am not drinking the water. My wife is not drinking the 
water. None of my neighbors trust the water.
    And you know, I don't put all the blame on the water 
company. We need laws to enforce. We need to enforce these laws 
when you make them, and prosecute these people who are 
responsible for polluting our water and polluting our air.
    And the main thing, I was told by a very strong source, by 
one of the workers who worked for Freedom Industries, that he 
found a leak in a tank. Instead of reporting it, he was told to 
take a paintbrush and paint it.
    So that is what you are dealing with.
    Mr. Shuster. I am sure those investigations are going on. I 
thank you for your comments. Those kind of investigations, I am 
sure, will be investigated.
    Again, I want to thank everybody for participating, 
especially our witnesses today. Thank you very much for helping 
us understand and educating us on what has happened here.
    As mentioned, Mr. Rahall made the motion to keep the record 
open for 30 days. So anybody who wishes to submit testimony or 
information to the committee has 30 days to do that.
    And again, I am confident that you folks are represented by 
Senator Manchin, Senator Rockefeller, Representatives Rahall 
and Capito, four very able Representatives for the people of 
West Virginia. Your voice will be heard, not only in the 
committee, but in the Congress.
    So again, I thank everybody for being here.
    And with that, the committee stands adjourned.
    [Whereupon, at 11:10 a.m., the committee was adjourned.]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
